<html>
<title> - EDUCATION REFORMS: EXAMINING THE FEDERAL ROLE IN PUBLIC SCHOOL ACCOUNTABILITY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
    EDUCATION REFORMS: EXAMINING THE FEDERAL ROLE IN PUBLIC SCHOOL 
                             ACCOUNTABILITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, SEPTEMBER 14, 2011

                               __________

                           Serial No. 112-38

                               __________

  Printed for the use of the Committee on Education and the Workforce


                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
68-265                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6601160926051315120e030a164805090b48">[email&#160;protected]</a>  

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Bob Goodlatte, Virginia              Lynn C. Woolsey, California
Duncan Hunter, California            Ruben Hinojosa, Texas
David P. Roe, Tennessee              Carolyn McCarthy, New York
Glenn Thompson, Pennsylvania         John F. Tierney, Massachusetts
Tim Walberg, Michigan                Dennis J. Kucinich, Ohio
Scott DesJarlais, Tennessee          Rush D. Holt, New Jersey
Richard L. Hanna, New York           Susan A. Davis, California
Todd Rokita, Indiana                 Raul M. Grijalva, Arizona
Larry Bucshon, Indiana               Timothy H. Bishop, New York
Trey Gowdy, South Carolina           David Loebsack, Iowa
Lou Barletta, Pennsylvania           Mazie K. Hirono, Hawaii
Kristi L. Noem, South Dakota         Jason Altmire, Pennsylvania
Martha Roby, Alabama
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on September 14, 2011...............................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Carvalho, Alberto M., superintendent, Miami-Dade County 
      Public Schools.............................................    17
        Prepared statement of....................................    20
    Hawley, A. Blaine, principal, Red Pump Elementary School, Bel 
      Air, MD....................................................    13
        Prepared statement of....................................    15
    Sichel, Dr. Amy F., superintendent of schools, Abington 
      School District............................................    24
        Prepared statement of....................................    26
    Skandera, Hanna, secretary-designate, New Mexico Public 
      Education Department.......................................     7
        Prepared statement of....................................    10

Additional Submissions:
    Questions submitted for the record:
        Biggert, Hon. Judy, a Representative in Congress from the 
          State of Illinois:
            To Ms. Hawley........................................    62
            To Dr. Sichel........................................    64
            To Ms. Skandera......................................    83
        Hirono, Hon. Mazie K., a Representative in Congress from 
          the State of Hawaii, to Mr. Carvalho...................    60
        Mr. Kline:
            To Ms. Hawley........................................    62
            To Dr. Sichel........................................    64
            To Ms. Skandera......................................    83
    Responses to questions submitted:
        Mr. Carvalho.............................................    61
        Ms. Hawley...............................................    62
        Dr. Sichel...............................................    65
        Ms. Skandera.............................................    83


                           EDUCATION REFORMS:
                     EXAMINING THE FEDERAL ROLE IN
                      PUBLIC SCHOOL ACCOUNTABILITY

                              ----------                              


                     Wednesday, September 14, 2011

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:00 a.m., in room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Petri, Biggert, Platts, 
Foxx, Goodlatte, Hunter, Roe, Thompson, DesJarlais, Hanna, 
Bucshon, Noem, Roby, Heck, Miller, Kildee, Andrews, Scott, 
Woolsey, Hinojosa, McCarthy, Kucinich, Altmire, Holt, Davis, 
and Hirono.
    Staff Present: Jennifer Allen, Press Secretary; Katherine 
Bathgate, Press Assistant/New Media Coordinator; James 
Bergeron, Director of Education and Human Services Policy; 
Casey Buboltz, Coalitions and Member Services Coordinator; 
Heather Couri, Deputy Director of Education and Human Services 
Policy; Lindsay Fryer, Professional Staff Member; Daniela 
Garcia, Professional Staff Member; Barrett Karr, Staff 
Director; Rosemary Lahasky, Professional Staff Member; Krisann 
Pearce, General Counsel; Mandy Schaumburg, Education and Human 
Services Oversight Counsel; Dan Shorts, Legislative Assistant; 
Linda Stevens, Chief Clerk/Assistant to the General Counsel; 
Alissa Strawcutter, Deputy Clerk; Brad Thomas, Senior Education 
Policy Advisor; Daniel Brown, Minority Junior Legislative 
Assistant; Jody Calemine, Minority Staff Director; John D'Elia, 
Minority Staff Assistant; Jamie Fasteau, Minority Deputy 
Director of Education Policy; Ruth Friedman, Minority Director 
of Education Policy; Brian Levin, Minority New Media Press 
Assistant; Kara Marchione, Minority Senior Education Policy 
Advisor; Julie Peller, Minority Deputy Staff Director; Melissa 
Salmanowitz, Minority Communications Director for Education; 
Laura Schifter, Minority Senior Education and Disability 
Advisor; Michele Varnhagen, Minority Chief Policy Advisor/Labor 
Policy Director; and Michael Zola, Minority Senior Counsel.
    Chairman Kline. A quorum being present, the committee will 
come to order. Before we proceed with this morning's hearing I 
would like to recognize Mr. Miller for an announcement.
    Mr. Miller. Thank you, Chairman Kline. I am pleased to 
announce that Congressman Jason Altmire will be filling the 
minority's vacancy on this committee and sitting on the Health 
and the Higher Education Subcommittees. As many of you know, 
Congressman Altmire was a member of the committee from 2007 to 
2010 during his first two terms in Congress. He is currently 
serving his third term in Congress representing Pennsylvania's 
Fourth Congressional District. And I ask all my colleagues to 
join me in welcoming Congressman Altmire back to the committee. 
And Jason, we are glad you wanted to continue to serve on the 
committee.
    Mr. Altmire. Thank you.
    Mr. Miller. Welcome.
    Chairman Kline. And Jason, I add my welcome. It is good to 
see you back. Well, good morning, all. Welcome to our committee 
hearing on public school accountability. I would like to thank 
our witnesses for joining us today. We appreciate the 
opportunity to get your perspective on the role States, local 
school districts, and the Federal Government should play in 
ensuring schools are held accountable for improving student 
achievement.
    According to a recent Gallup poll, Americans' opinion of 
the U.S. public school system continues to plummet. Only 34 
percent of the survey participants indicated ``quite a lot'' or 
``a great deal'' of confidence in our public schools.
    This should come as no surprise. We don't have to look far 
to find discouraging statistics about fourth graders struggling 
to read or rising high school dropout rates. Decades of 
escalating Federal intervention in the Nation's classrooms has 
not only failed to raise student achievement levels, it has 
also created a complex web of red tape that ties the hands of 
State and local education officials.
    Despite its best intentions, our education system is 
seriously flawed. Currently elementary and secondary education 
law, No Child Left Behind, requires all students to be 
proficient in reading and math by 2014, which frankly is not 
going to happen. Under NCLB's accountability system, known as 
Adequate Yearly Progress, all schools that fail to meet target 
proficiency levels for 2 or more consecutive years are required 
to undergo the same series of prescriptive Federal 
interventions regardless of the unique circumstances or 
challenges facing each school.
    We cannot continue to rely on this one-size-fits-all 
Federal accountability system to gauge the performance of our 
schools and students. It is time to develop a more meaningful 
way to measure whether students are learning, and we must be 
willing to look beyond laws enacted in Washington, D.C. Across 
the country reform-minded individuals are challenging the 
education paradigm in exciting ways and children are benefiting 
from their efforts.
    For example, K-12 reform has been a top priority in Florida 
for more than a decade. In 1999, then-Governor Jeb Bush enacted 
a series of far reaching school reforms that gave parents a 
greater role and significantly narrowed the achievement gap for 
the State's Hispanic and black students. Moreover, these 
previously underserved groups began to outscore many statewide 
averages for all students. Florida's academic successes were 
made possible by commonsense changes by reformers, students and 
teachers all working together for a single united purpose: 
student achievement.
    In Indiana, State leaders in local school districts are 
implementing the Indiana Growth Model, which measures a 
school's success and assigns letter grades. The new system 
enables a more in-depth measurement of how much students learn 
over the course of a school year no matter their achievement 
level, income, race or zip code. Accordingly, parents and 
education officials gain a more accurate view of which teachers 
are driving the biggest academic gains in the classroom, moving 
away from simply assessing test scores to a model that 
recognizes teachers who are moving students one and a half to 
two and a half grade levels in a single school year.
    Florida and Indiana are not alone. States across the 
country are working to improve accountability systems, holding 
schools accountable for student performance, improve classroom 
instruction and offer parents more quality choices in their 
children's education. Each of the witnesses here with us today 
has played a fundamental role in the development and 
implementation of innovative accountability systems at the 
State and local levels. These bold reformers are taking matters 
into their own hands, and I believe we must do everything we 
can to get out of their way.
    As we work to redefine accountability we must examine the 
progress being made by the men and women who have an integral 
understanding of the challenges and opportunities facing 
America's students. I look forward to learning our witnesses' 
views on the way forward for accountability and a productive 
debate with my colleagues.
    Before we continue with the hearing, now that we have 
gathered some more of our colleagues, I again want to welcome 
to the committee Jason Altmire. Jason, again, we are glad to 
have you back on the committee and look forward to hearing your 
views on the issues before us.
    I now turn to my colleague George Miller, the senior 
Democratic member of the committee, for his opening remarks.
    [The statement of Mr. Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    Good morning, and welcome to our committee hearing on public school 
accountability. I'd like to thank our witnesses for joining us today. 
We appreciate the opportunity to get your perspective on the role 
states, local school districts, and the federal government should play 
in ensuring schools are held accountable for improving student 
achievement.
    According to a recent Gallup poll, Americans' opinion of the U.S. 
public school system continues to plummet. Only 34 percent of the 
survey participants indicated 'quite a lot' or 'a great deal' of 
confidence in our public schools.
    This should come as no surprise--we don't have to look far to find 
discouraging statistics about fourth graders struggling to read or 
rising high school dropout rates. Decades of escalating federal 
intervention in the nation's classrooms has not only failed to raise 
student achievement levels, it has also created a complex web of red 
tape that ties the hands of state and local education officials.
    Despite its best intentions, our education system is seriously 
flawed. Current elementary and secondary education law, known as No 
Child Left Behind, requires all students to be proficient in reading 
and math by 2014, which, frankly, isn't going to happen. Under NCLB's 
accountability system, known as Adequate Yearly Progress, all schools 
that fail to meet target proficiency levels for two or more consecutive 
years are required to undergo the same series of prescriptive federal 
interventions, regardless of the unique circumstances or challenges 
facing each school.
    We cannot continue to rely on a one-size-fits-all federal 
accountability system to gauge the performance of our schools and 
students. It's time to develop a more meaningful way to measure whether 
students are learning, and we must be willing to look beyond laws 
enacted in Washington, D.C. Across the country, reform-minded 
individuals are challenging the education paradigm in exciting ways, 
and children are benefitting from their efforts.
    For example, K-12 reform has been a top priority in Florida for 
more than a decade. In 1999, then-Governor Jeb Bush enacted a series of 
far-reaching school reforms that gave parents a greater role and 
significantly narrowed the achievement gap for the state's Hispanic and 
black students. Moreover, these previously underserved groups began to 
outscore many statewide averages for all students. Florida's academic 
successes were made possible by commonsense changes by reformers, 
students, and teachers all working together for a single, united 
purpose: student achievement.
    In Indiana, state leaders and local school districts are 
implementing the ``Indiana Growth Model,'' which measures schools' 
successes and assigns letter grades. The new system enables a more in-
depth measurement of how much students learn over the course of a 
school year--no matter their achievement level, income, race, or ZIP 
code. Accordingly, parents and education officials gain a more accurate 
view of which teachers are driving the biggest academic gains in the 
classroom--moving away from simply assessing test scores to a model 
that recognizes teachers who are moving students 1.5 to 2.5 grade 
levels in a single school year.
    Florida and Indiana are not alone--states across the country are 
working to improve accountability systems, hold schools accountable for 
student performance, improve classroom instruction, and offer parents 
more quality choices in their children's education.
    Each of the witnesses here with us today has played a fundamental 
role in the development and implementation of innovative accountability 
systems at the state and local levels. These bold reformers are taking 
matters into their own hands, and I believe we must do everything we 
can to get out of their way.
    As we work to redefine accountability, we must examine the progress 
being made by the men and women who have an integral understanding of 
the challenges and opportunities facing America's students. I look 
forward to learning our witness' views on the way forward for 
accountability, and a productive debate with my colleagues.
    Before we continue with the hearing, I welcome to the committee my 
colleague from Pennsylvania's 4th district, Congressman Jason Altmire. 
We're glad to have you back on the committee, and look forward to 
hearing your views on the important issues before us.
                                 ______
                                 
    Mr. Miller. Thank you, Mr. Chairman. And I join you in 
welcoming Jason back. And good morning to our witnesses, and 
thank you for coming and sharing your time and your expertise 
with us.
    This morning's hearing focuses on one of the most important 
issues in public school education, accountability. We have had 
a number of hearings this year examining the Federal role in 
education, and I think there is universal agreement that we 
need to update No Child Left Behind. And the witnesses have 
told us that there is in fact a need for Federal Government in 
education and specifically when it comes to accountability.
    In our first education hearing this year one of the 
Republican witnesses said that the Federal Government needs to 
put guardrails in place to ensure quality and provide support. 
I believe that these guardrails must include college and career 
ready standards, goals to ensure that standards are met and 
aggressive but achievable annual performance targets so the 
States, districts and schools know what is expected of them in 
continuing to move all students forward.
    Without accountability, parents, teachers and school 
administrators have no way of knowing what exactly is happening 
in schools and whether our students are learning and our 
schools are improving. Parents shouldn't wonder if their 
child's school is preparing that child to succeed in college 
after graduation or in a career. And if their child isn't on 
track to graduate with those skills, parents should know their 
school has a responsibility to improve and meet their child's 
needs.
    Without accountability, it is too easy to return to a time, 
prior to NCLB, when students' actual performance was masked by 
averages. Accountability is at the heart of No Child Left 
Behind. The law shined a bright light on how all students were 
performing, including low-income students, minority students 
and students with disabilities.
    Ten years later there is a need for reform, and the need 
for transparency and accountability and action remains critical 
to any reform.
    When we wrote the law, our intention was very clear. We 
wanted a laser like focus on data and accountability to improve 
the education of students that were falling behind. We took the 
important step forward calling for communities to be 
transparent about the achievement of all children, and now we 
need to take the next step, which is to balance that 
accountability we worked so hard to implement in No Child Left 
Behind with greater flexibility at the local level, with less 
prescription at the Federal level.
    We need an accountability system that works and refuses to 
let any student slip through the cracks. We must set high goals 
for all students and provide them with a challenging and 
rigorous learning environment that is tied to college and 
career ready standards, not the standards that lead to remedial 
classes in college but actual ability to participate in the 
college curriculum.
    Students need creative, effective teachers who hold them to 
high goals and standards and can adjust their teaching 
strategies when needed. These efforts are happening in some 
schools and some States but not in enough. These high 
expectations should be there for every child in every school.
    The role of the Federal Government in accountability is 
essential to meet these high expectations and to ensure that 
all children receive a high quality education. And the Federal 
Government should require that all States and each school 
district use database decision making to target interventions 
to improve the academic achievement of all students.
    Attacking the Federal role or eliminating it won't get us 
closer to being the best in the world in education. It won't 
help our economic security or our global competitiveness. What 
it will do is make things harder for schools and students that 
need the most help. Getting the Federal role right on 
accountability and in all matters is a smart way to move 
forward.
    Unfortunately, in this committee we have seen legislation 
that would be detrimental and harmful to the neediest students. 
The flexibility package we passed in July will create a slush 
fund for school districts, and that is unacceptable. It will 
take away money and resources from the neediest students and 
let school districts forego the civil rights priorities and the 
education equality promised to students under important court 
cases like Brown v. Board of Education.
    There is very little support for the bill in the education 
community because people who know the needs of school districts 
know why NCLB was signed into law, to ensure a quality 
education for all students, a goal that must not be forgotten 
in the next reauthorization.
    I look forward to hearing from all of our witnesses about 
the accountability programs that you have structured in your 
districts, and I yield back my time. Thank you, Mr. Chairman.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Thank you, Mr. Chairman and good morning.
    This morning's hearing focuses on one of the most important issues 
in public school education: accountability.
    We have had a number of hearings this year examining the federal 
role in education. I think there is universal agreement we need to 
update No Child Let Behind (NCLB). And witnesses have told us that 
there is in fact a need for the federal government in education and 
specifically, when it comes to accountability.
    In our first education hearing this year, one of the Republican 
witnesses said that the federal government needs to put ``guardrails in 
place to ensure quality and provide support.''
    These guardrails must include college and career ready standards, 
goals to ensure those standards are met, and aggressive, but achievable 
annual performance targets so that states, districts and schools know 
what is expected of them and continue to move all students forward.
    Without accountability, parents, teachers and school administrators 
have no way of knowing what exactly is happening in schools and whether 
our students are learning.
    Parents shouldn't wonder if their child's school is preparing that 
child to succeed in college after graduation.
    And if their child isn't on track to graduate with those skills, 
parents should know their school has a responsibility to improve and 
meet their child's needs.
    Without accountability it is too easy to return to a time, prior to 
NCLB, when students' actual performance was masked by averages.
    Accountability was at the heart of No Child Left Behind. The law 
shined a bright light on how all students were performing, including 
low income students, minority students and students with disabilities.
    10 years later there is a need for reform. And the need for 
transparency, accountability, and action remains critical to any 
reform.
    When we wrote the law, our intention was very clear. We wanted a 
laser like focus on data and accountability to improve the education of 
students who were falling behind.
    We took important steps forward, calling on communities to be 
transparent about the achievement of all children. And now we need to 
take the next steps: balance the accountability we worked so hard to 
implement in NCLB with greater flexibility at the local level and less 
prescription at the federal level.
    We need an accountability system that works and refuses to let any 
student slip through the cracks. We must set high goals for all 
students and provide them with a challenging and rigorous learning 
environment that is tied to college and career ready standards.
    Students need creative, effective teachers who hold them to high 
goals and standards--and can adjust their teaching strategies when 
needed.
    These efforts are happening in some schools, in some states. But 
that's not good enough. These high expectations should be there for 
every student in every school.
    The role of the federal government in accountability is essential 
to meet these high expectations and ensure that all children receive a 
high quality education. And the federal government should require that 
each state and each school district use data-based decision making to 
target interventions to improve the academic achievement of all 
students.
    Attacking the federal role or eliminating it won't get us closer to 
being the best in the world in education. It won't help our economic 
security or our global competitiveness. What it will do is make things 
harder for the schools and students that need the most help. Getting 
the federal role right on accountability and in all matters is the 
smart way to move forward.
    Unfortunately, in this committee, we've seen legislation that would 
be detrimental and harmful to the neediest students. The flexibility 
package we passed in July will create a slush fund for school 
districts.
    It will take away money and resources from the neediest students 
and let school districts forgo the civil rights priorities and 
education equality promised to students under important court cases 
like Brown vs. the Board of the Education.
    There is very little support for the bill in the education 
community because people who know the needs of school districts know 
why NCLB was signed into law--to ensure a quality education for all 
students--a goal that must not be forgotten in the next 
reauthorization.
    I look forward to hearing from our witnesses today about 
accountability in your districts. I yield back.
                                 ______
                                 
    Chairman Kline. I thank the gentleman. Pursuant to 
committee rule 7(c) all committee members will be permitted to 
submit written statements to be included in the permanent 
hearing record. And without objection, the hearing record will 
remain open for 14 days to allow statements, questions for the 
record and other extraneous material referenced during the 
hearing to be submitted in the official hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses, and it is a terrific panel today. First is Ms. 
Hanna Skandera, the Secretary-Designate of Education for the 
New Mexico Department of Public Education.
    Ms. Blaine Hawley has been in education for 26 years. She 
started when she was 3, and a principal for 7. In January 2011 
she became principal of Red Pump Elementary in Bel Air, 
Maryland, a newly constructed school serving 620 students in 
grades K-5.
    Mr. Alberto Carvalho has served as superintendent of Miami-
Dade County Public Schools, a little district in the southern 
part of the country, since 2008. He has served as a classroom 
science teacher, a school site administrator and an advocate 
for secondary school reform.
    Dr. Amy Sichel has been a member of the Abington School 
District in Abington, Pennsylvania, staff for 35 years. She has 
served as superintendent of schools for the past 11 years.
    Welcome to you all. Before I recognize you to provide your 
testimony let me again explain our lighting system, our timing 
system. You will have 5 minutes to present your testimony. When 
you begin the light there in front of you will turn green. When 
one minute is left the light will turn yellow. And when your 
time is expired the light will turn red, at which point I would 
ask you to move as quickly as you can to wrap up your remarks. 
And after you have testified members will each have 5 minutes 
to ask questions of the panel. As we mentioned to some of you 
earlier, I am loathe to drop the gavel on such distinguished 
witnesses, but please try to wrap up when that red light comes 
on.
    Okay. Ms. Skandera, you are recognized.

 STATEMENT OF HANNA SCANDERA, SECRETARY-DESIGNATE, NEW MEXICO 
                  PUBLIC EDUCATION DEPARTMENT

    Ms. Skandera. Good morning, Mr. Chairman, members of the 
committee. Thank you for having me here to testify today. It is 
my privilege and honor. And I just will harken back to a couple 
of comments you made, Mr. Chairman, about Indiana and Florida.
    I am also vice chair of Chiefs for Change, which is a group 
of reform minded chiefs across the Nation seeking to implement 
research driven and data driven reform across their States. And 
I also am a member of CCSSO, and I will also mention that they 
have accountability principles they have mentioned and put 
forward for reauthorization of No Child Left Behind. Both 
Chiefs for Change and CCSSO have excellent recommendations when 
it comes to accountability.
    Having said that, I also was former Deputy Commissioner in 
Florida, so I hope to bring to the table a little bit of a 
larger State's perspective, and then New Mexico, which is a 
smaller State when it comes to the number of students we serve. 
However, in the State of New Mexico we are a very diverse 
State. We are a minority and majority State: 55 percent of our 
students are Hispanic, 11 percent Native American. We have 22 
different tribes, pueblos and Indian nations that are 
represented in New Mexico alone. In addition, we have obviously 
many other diverse groups across our State. So we are charged 
and challenged with the great opportunity to close our 
achievement gap.
    I was struck a few minutes ago by what I think is the 
conundrum in education. Often there are so many great ideas, 
but at the end of the day it is our charge at the State level, 
the district and the school level and certainly in looking at 
the Federal role at what are those things that we know matter 
most for our kids and how do we begin to have a laser focus on 
a few great things to create change and reform for our students 
versus a whole lot of things that might hit around the edges 
but don't get to the real issue, which is every student across 
this Nation can learn. And I do believe that No Child Left 
Behind in principle made that statement to this Nation and to 
our States, and it is our job to steward that as we go forward 
in our States and also to look forward to the reauthorization 
and the flexibilities that might be brought to the table.
    I will mention a few things about New Mexico as well. Just 
to be straightforward, we are often ranked 49th in the Nation 
when it comes to student achievements. I look forward to the 
day when I can tell somebody like Florida, sorry, we changed 
places with you. But I also believe that there are key reforms 
that must be implemented to make that happen. We in New Mexico, 
as I mentioned, are 49th when it comes to fourth grade reading. 
80 percent of our schools according to NAEP are not on grade 
level when it comes to being able to read at the appropriate 
level; 49th often when it comes to graduation rates in 
comparisons across the Nation. So we have lots of room for 
growth and improvement, but we are committed to that.
    And I am proud to say that New Mexico has a new Governor 
and she has championed education reform with the umbrella of we 
put our kids first in every decision we make and we will see 
New Mexico win across the board. And the basic belief that 
there are five strategic key levers for change when it comes to 
accountability, reform and the possibility that every one of 
our students is successful, whether it is career or college. 
And I would like to unpack those key strategic levers for 
change.
    Number one, we expect a smarter return on investments. 
There is plenty of research that tells us money matters, but it 
is not the driver when it comes to improved student 
achievements. In New Mexico we have the ability to review every 
single district and charter school's budget every year, and we 
either approve it or disapprove it. And in that process we have 
the opportunity and in just this last year put into 
legislation, not only are we approving budgets for fiscal 
solvency, et cetera, but we are asking the fundamental question 
what is our return on investment. At this point in time it is 
not okay just to put money into whatever reform measure it is, 
it is the question, ``Is this a proven strategy for improved 
student achievement?''
    So today we are ranked about 37th in the Nation when it 
comes to per-pupil expenditures in New Mexico. I already shared 
we are ranked about 49th when it comes to student achievement. 
We believe and expect when it comes to return on investment 
that we can do a better job. And so as we look forward to 
implementing this policy our fundamental question is not how 
much are we getting, but what is our return.
    When it comes to the Federal role, I would encourage 
Congress to consider maintaining high expectations in terms of 
outcomes linked to proven strategies of improved student 
achievement while providing flexibility when those expectations 
are met.
    Second strategic lever: real accountability for real 
results. Today in New Mexico 87 percent of our schools are 
failing, according to No Child Left Behind. I would expect by 
next year it will be nearly 100 percent because of our annual 
measurable objectives and the expectations that continue to 
increase. I will tell you that I do not believe 87 percent of 
our schools are failing. I believe that we have many that are 
failing. And we need to begin to create a differentiated 
accountability system that gives us an opportunity to identify 
those schools that are truly improving and seen success and 
those that are struggling to intervene in a meaningful way.
    So as we look towards what we are doing in the State of New 
Mexico, this year we passed a law to provide grades to our 
schools A, B, C, D or F, not pass or fail. We implemented this 
because there are other States across this Nation that have 
implemented this program and seen remarkable results. No longer 
is it okay to say we are making it or not, we must 
differentiate so that we can intervene in a meaningful way. In 
our school grading system we allow the--we capture, I should 
say, progress and growth, not just a static measure of 
proficiency.
    I mentioned the third strategic lever for change, ensuring 
our students are ready for success. There are two components 
for this strategic lever. Number one, the expectation that we 
have rigorous college and career ready standards, we have 
adopted the Common Core and we believe that as we transition 
that will be a key in providing the platform and foundation for 
improved student achievement, not the guarantee but the 
foundation. And I would say in that I firmly believe that the 
decision to adopt the Common Core is solely that of the State. 
I think it is the important role of the Federal Government to 
establish high expectations, but it is the State's role to 
adopt those standards.
    In addition to having high standards and expectations, we 
also have another expectation that our students can read on 
grade level. And while this sounds novel it is not. 47 percent 
of our third grade students today are not reading on grade 
level. So we have begun to raise the bar and are currently 
pursuing a policy that says if by the end of the third grade 
our students who have received interventions from kindergarten, 
first, second and third grade are not able to read, it is our 
job as adults to say enough is enough, draw a line in the sand 
and begin to say we are not sending our students forward and 
setting them up for failure.
    Chairman Kline. Ms. Skandera, can I ask you to wrap up 
here, please?
    Ms. Skandera. Yes.
    Chairman Kline. Thank you very much.
    Ms. Skandera. Mr. Chairman, members of the committee, 
finally, two other strategic levers that I believe are 
important are honoring and rewarding our effective teachers and 
school leaders, which we have many of, and we have failed 
fundamentally in our currently system to do that.
    And finally, implementing effective options for parents to 
provide options. And we look forward to the support of the 
Federal Government in both of those endeavors. Thank you, Mr. 
Chairman.
    [The statement of Ms. Skandera follows:]

       Prepared Statement of Hanna Skandera, Secretary-Designate,
                 New Mexico Public Education Department

    Mr. Chairman, members of the committee, thank you for having me 
here to testify today. My name is Hanna Skandera and I am the 
Secretary-designate for the New Mexico Public Education Department. I 
also serve as the vice-chair of Chiefs for Change--a dynamic group of 
state chiefs driving reform. The achievement of our students, the 
quality of our teachers, and the measures we use to hold schools 
accountable are at the forefront of New Mexico's education reform 
efforts.
    New Mexico's demographics are distinctive: 57% of the State's K--12 
students are Hispanic, 29% are White, 11% are Native American, 3% are 
Black, and 1% are Asian or of other backgrounds. New Mexico is ranked 
36th in overall population size, has the fifth largest land mass in the 
U.S. (121,665 square miles), and ranks 45th in the nation in population 
density. Further, with only 6.3 people per square mile, New Mexico 
faces unique challenges in educating students in rural areas. New 
Mexico has been a majority-minority state since its inception with 22 
distinct Indian tribes, pueblos, and nations.
    Since taking office, Governor Martinez has advanced a bold 
education reform agenda: Kid's First, New Mexico Wins. The need for 
reform in New Mexico is now:
    <bullet> Only 53% of New Mexico third graders read proficiently;
    <bullet> 33% of our students who score proficient or higher on the 
11th grade English Language Arts assessment need remediation in 
college;
    <bullet> Under AYP, 87% of our schools are failing; and
    <bullet> 99.98% of our teachers ``meet competency'' under an 
evaluation system that fails to reward excellence and link teacher 
evaluations to student outcomes.
    Our challenge is great, but I know New Mexico students can reach 
high levels of achievement. Further, our cultural and geographic 
diversity is one of our greatest strengths, and we must find a way to 
leverage that great resource.
    Under the Kids First, New Mexico Wins reform agenda, New Mexico has 
identified 5 strategic levers for change. Each lever allows for New 
Mexico to advance bold reform, while holding a high bar.

Lever 1: A Smarter Return on New Mexico's Investment
    We know that money alone cannot fix education. Rather than maintain 
the status quo, New Mexico is proactively shifting the way we allocate 
funding to districts and schools. Through our annual budget review 
process, we are partnering with districts to look in detail at where 
their funds are being allocated and to ensure that expenditures are 
aligned with proven instructional strategies.
    As states intervene in low performing schools, implement teacher 
effectiveness systems, and increase effective options for parents, 
providing additional flexibility on the use of existing federal funds 
will spur innovation and better meet the needs of students and schools. 
I encourage Congress to consider maintaining high expectations in terms 
of outcomes, while providing flexibility when those expectations are 
met.

Lever 2: Real Accountability, Real Results
    Under the current AYP system, 87% of New Mexico schools are 
failing. I know that this is not the case. We have some schools in New 
Mexico that are helping students to achieve and grow in a robust way 
annually and currently we have no way to recognize those 
accomplishments. On the other hand, I know we have schools that 
struggle to help children reach a basic level of achievement, and with 
such a large number of schools ``failing'', it is hard to accurately 
and effectively differentiate interventions and resources to those that 
need them most.
    Earlier this year, New Mexico passed a new school accountability 
system, the A-F School Grading Act. This new, differentiated 
accountability system will allow us to recognize both proficiency and 
growth. For the first time, we will know with confidence which schools 
are our A schools and be able to use them as models for our schools 
that struggle.
    A grade for an elementary and middle school will be based on 
proficiency, growth, as well as additional proven academic indicators. 
We will also utilize a value-add model in our calculation to ensure we 
are holding schools accountable for those areas they are truly 
responsible for versus the ones they are not, such as a student's race 
or socio-economic status.
    For high schools, school grades will be based on proficiency, 
growth, graduation rate, and college and career readiness indicators 
such as AP coursework, PSAT and ACT scores.
    While the current system includes critical components for any 
accountability system--disaggregated data, standards and assessments, 
interventions for low performing schools--the arbitrary bar and lack of 
flexibility has made it difficult for states to advance bold 
accountability agendas that serve their schools and students well. 
Moving forward, New Mexico encourages Congress to pursue an 
accountability framework that requires states to have a high bar and 
expectations for all schools, but coupled with flexibility to allow 
states and districts to determine achievement targets for schools and 
differentiate interventions to meet the unique and specific needs of 
low achieving schools.

Lever 3: Ready for Success
    Regardless of background, all students can achieve at high levels. 
Our Ready for Success initiative is related directly to preparing all 
students for success in college or career. New Mexico has already taken 
several important steps towards realizing this goal.
    First, we are working to transition to rigorous, college and career 
ready standards. Adopting the Common Core was an important first step 
to ensure that our students are competitive in New Mexico and across 
the nation. As we transition to these new and rigorous standards, we 
are committed to engaging our teachers, school leaders and parents to 
ensure successful implementation. I firmly believe that the decision to 
adopt the Common Core is solely that of a state. While NCLB took an 
important step in requiring states to implement rigorous standards for 
all students in a state, the role of the federal government should end 
there.
    Second, we have placed a command focus on reading. A 2011 report by 
the Annie E. Casey Foundation, Double Jeopardy, found that students who 
are not proficient readers by the end of third grade are four times 
more likely to drop out of high school. Screening and intervention in 
the earliest grades will make our students better prepared to compete 
in the 21st Century economy. Additionally, ending the all too common 
practice of social promotion will provide our most at-risk students 
with the opportunity they deserve to achieve at high levels.
    As Congress reauthorizes ESEA, I encourage you maintain the 
expectation that all students can reach college and career expectations 
and have ample opportunity to do so.

Lever 4: Rewarding Effective Educators and Leaders
    While there is no silver bullet in education, research has clearly 
shown that one of the most important school-related factors influencing 
a child's academic achievement is the quality of his or her teacher. A 
recent study by Eric Hanushek found that if we give the most at-risk 
students the most effective teachers, we could close the achievement 
gap. Conversely, the data show that if a student is placed in a 
classroom with a low performing teacher, the student will struggle to 
make up learning gains lost.
    The current teacher evaluation and recognition process in New 
Mexico places emphasis on years of experience and credentials obtained. 
In a recent 2010 sample of twenty-five percent of New Mexico's 
teachers, 99.998 percent of these teachers received a rating of ``meets 
competency'' on their evaluations (versus ``does not meet competency 
''). Yet we are not seeing proportional success in terms of New Mexico 
student achievement. This suggests a lack of alignment between the 
system that measures teacher performance and the system that measures 
student learning outcomes.
    We are working to develop and implement a new teacher and school 
leader evaluation system that includes multiple measures such as 
student achievement as measured by a value-add model, objective and 
uniform observations, and additional measures that will be selected by 
districts. Any new system must better enable districts to address and 
improve school personnel policies concerning professional development, 
promotion, compensation, performance pay, and tenure. Further, the 
evaluation system must identify teachers and school leaders who are 
most effective at helping students succeed, provide targeted assistance 
and professional development opportunities for teachers and school 
leaders, inform the match between teacher assignments and student and 
school needs and inform incentives for effective teachers and school 
leaders.
    I encourage Congress to replace the current expectations under NCLB 
in regards to credentials with those that prioritize outcomes for 
students.

Lever 5: Effective Options for Parents
    Governor Martinez remains committed to offering parents multiple 
educational opportunities for their children. However, these options 
must be effective.
    New Mexico is working to amend our existing process for new and 
renewal charter school applications to ensure that only quality charter 
schools are approved or renewed. An effective charter school has the 
potential to meet the educational needs for students in rural and urban 
areas who have limited choice now. In addition to increasing the number 
and location of effective charter schools throughout New Mexico, we are 
also pursuing effective virtual options.
    Particularly in our rural districts, providing robust virtual 
schooling options is a priority. Often, these districts are unable to 
offer public school choice, advanced math and science classes, or AP 
coursework. Virtual schools can address these issues. I encourage 
Congress to consider flexibility for states in the use of federal 
dollars to pursue robust virtual school offerings for students in 
under-served areas.
    As Congress pursues reauthorization of ESEA, I encourage you to 
consider several important ideas:
    <bullet> First, states know best what their districts and schools 
need in terms of flexibility and interventions. Allowing states to 
implement accountability systems that reward effective schools and 
intervene in a significant manner with the lowest achieving schools 
will increase the number of high performing schools across this nation.
    <bullet> Second, many states are pursuing teacher effectiveness 
models that are based significantly on student outcomes versus those 
that are based on credentials and years of experience. This is hard 
work, and states need support from Congress to accomplish it 
effectively. This does not mean we need to be told what to do, but, 
rather, to be supported as we pursue these changes.
    <bullet> Third, prioritize the use of existing federal funds on 
proven programs and strategies. New money will not increase the number 
of proficient readers in New Mexico, or any state. Instead, provide 
flexibility to states to direct recourses to support proven programs at 
the school and classroom level.
    <bullet> Fourth, rural states face unique challenges. New Mexico 
has districts with as few as 43 students. The interventions and 
supports that may be effective in Albuquerque are very different than 
those that will be effective in Mosquero. As you work to reauthorize 
ESEA, I challenge you to think critically and strategically about how 
these schools' needs can be met.
    <bullet> Fifth, academic standards are the business of states. 
Simply stated, all states should be required to implement rigorous 
standards for all students in a state, but the role of the federal 
government ends there.
    As you prepare to reauthorize ESEA, I encourage you to visit the 
Chiefs for Change website and look closely at the ESEA reauthorization 
principals outlined. Thank you again for the opportunity to share my 
ideas on the federal role in school accountability and how Congress can 
maintain high expectations while expanding flexibility.
                                 ______
                                 
    Chairman Kline. Thank you. Ms. Hawley, you are recognized.

             STATEMENT OF BLAINE HAWLEY, PRINCIPAL,
                   RED PUMP ELEMENTARY SCHOOL

    Ms. Hawley. Good morning, Chairman Kline, Ranking Member 
Miller and members of the committee. Thank you for inviting me 
to testify this morning to provide the perspective of school 
principals on accountability in our Nation's public schools as 
the committee considers the renewal of the Elementary and 
Secondary Education Act, ESEA, most recently reauthorized as No 
Child Left Behind Act.
    My name is Blaine Hawley. And as you heard, I am the 
principal of Red Pump Elementary School in Bel Air, Maryland in 
Harford County school district. Throughout my career the last 7 
years has been spent as principal in two different schools. 
Prior to that I was a teacher, school counselor and assistant 
principal. I am very fortunate to be at Red Pump Elementary 
School, the first new school in the district in 10 years.
    Red Pump opened earlier this month and welcomed students 
from the neighboring elementary schools for an inaugural 
journey into the new school year. As the school principal I 
devoted significant time working with all of the stakeholders 
in the learning community to be clear about Red Pump's vision 
for excellence and laying the foundation for a culture that 
expects nothing less than excellence in teaching and learning.
    In both schools that I have led as principal we have 
understood the importance of the role that the teacher plays in 
the classroom with data driven instruction and ongoing 
assessment of student progress. Our teachers work together as 
teams utilizing a protocol for examining student work, as well 
as formative and summative assessments.
    Through this process with their grade level team and 
building specialists, they make collaborative decisions that 
inform instruction. Teachers know and understand their students 
and provide a differentiated program for student success. 
Decisions about individual student remediation, enrichment and 
intervention are all part of this process. Reflection is also 
an important aspect of this protocol, bringing teachers back 
together to evaluate the effectiveness of their instruction to 
ensure all students are moving forward.
    School leaders like me take on a myriad of tasks and 
responsibilities each day that require expertise as an 
organizational manager and an instructional leader to meet 
effective leadership standards. The standards of effective 
school leadership that principals must demonstrate are fully 
substantiated by the latest research. One area relies on the 
ability of principals to create professional learning 
environments where all adults are constantly improving their 
skills and knowledge and challenging one another to serve the 
learning and developmental needs of every student. This is also 
well established by the research which proves what educators 
inherently have known; second only to a great teacher in the 
classroom a quality principal will improve student academic 
achievement. Principals are and always have been highly 
accountable for what teachers teach and what students learn.
    The policies of the No Child Left Behind Act have done much 
good for helping States set high standards and helping us learn 
more about our unique populations of students through 
desegregation of data to make better instructional decisions. 
However, our Nation's all or nothing yardstick for measuring 
school and student performance is simply flawed. As a result, 
we are now facing the unintended consequence of a 
misidentification of failing schools and punitive labels 
acquired from a Federal mandate that inaccurately measures 
student performance from an across the board single snapshot in 
time.
    Principals live firsthand with this problem, which we hope 
the committee will address comprehensively in the 
reauthorization process. Principals support reasonable 
solutions that will effectively put more balance, fairness and 
accurate measures of student and school performance into our 
accountability system.
    As the committee considers adjustments and solutions to 
correct our current blunt instrument accountability measures 
mandated from Washington, I would like to leave you with the 
following parting thoughts from the principal's perspective. 
The appropriate Federal role in education is to promote equity 
and provide targeted resources to assist States and local 
districts. Federal policy should ask us to set high 
expectations, but also must support State and locally developed 
accountability systems, curriculum and instruction to best meet 
the needs of the students in the local school context.
    Principals support assessments so that we can measure the 
progress of our students, but Federal policy must encourage and 
support State and local assessments that include growth models 
and multiple measures of student performance, both formative 
and summative, to accurately gauge social and emotional 
development, language fluency and comprehension, creativity, 
adaptability, critical thinking and problem solving skills. 
Assessment data should be used to inform instruction, be fair, 
flexible, authentic and reflect a student's progress toward 
academic proficiency.
    Standards, curriculum and assessment must be closely 
aligned to be effective, and any assessment data must be 
available in a timely manner for practical or instructional 
use. Standardized assessment scores must never be used as a 
sole or primary criterion to measure student performance to 
grade or rank principal, teacher or school effectiveness, to 
allocate funds or to take punitive measures against schools 
and/or school personnel.
    State and local systems know there are a variety of ways in 
which children succeed and their achievements must be measured 
in multiple ways to accurately capture their emotional and 
social development, language fluency and comprehension, 
creativity, adaptability, critical thinking and problem solving 
skills in addition to proficiency in the core academic content 
areas.
    Measuring these factors and the many others that contribute 
to improved student outcomes must provide a complete picture 
not by an up or down, pass-fail standardized test score that is 
designed at the Federal level and that has no regard for the 
multitude of ways students progress. Assessment using a single 
metric produces a one-dimensional view of the child, the 
teacher, the principal and the school.
    Simply put, those of us in the field who are working every 
day in our educational system want the Federal Government to 
give us the opportunity to have more input into the development 
and implementation of the accountability mechanisms.
    Thank you for the opportunity to provide this testimony. I 
look forward to answering your questions.
    [The statement of Ms. Hawley follows:]

           Prepared Statement of A. Blaine Hawley, Principal,
                Red Pump Elementary School, Bel Air, MD

    Good morning Chairman Kline, Ranking Member Miller, and members of 
the Committee. Thank you for inviting me to testify this morning to 
provide the perspective of school principals on accountability in our 
nation's public schools as the Committee considers the renewal of the 
Elementary and Secondary Education Act (ESEA), most recently 
reauthorized as the No Child Left Behind Act. My name is Blaine Hawley 
and I am the principal of Red Pump Elementary School in Bel Air, MD, 
which serves over 600 students in grades kindergarten through five in 
the Harford County school district. I have been an educator for the 
past twenty seven years; a principal for the past seven years and prior 
to that, a teacher, school counselor, and assistant principal.
    I am very fortunate to be at Red Pump Elementary School, the first 
new school in the district in ten years. Red Pump opened earlier this 
month and welcomed students from the neighboring elementary schools for 
an inaugural journey into the new school year. Being a part of the 
planning and development process for Red Pump Elementary School before 
the walls were built has been an incredible experience. I devoted a 
great deal of my time over the past eight months designing the physical 
space to meet the needs of 21st Century students conducive to learning 
experiences appropriate for each age level.
    In addition, it has been important to make connections with 
families and provide outreach so that students new to the school would 
be comfortable and able to understand the school's operations and 
procedures, and most importantly, making sure that parents could assist 
us getting children ready and eager to learn.
    I have spent even more time working with all of the stakeholders in 
the learning community--teachers (including special area teachers in 
music, the arts and physical education), curriculum specialists, 
reading specialists, librarians, and even Central Office to be clear 
about Red Pump's vision for excellence--and laying the foundation for a 
culture that expects nothing less than excellence in teaching and 
learning. Now, we are focusing all of our attention to the teaching and 
learning inside the new classroom walls.
    A school vision and mission are essential in laying the groundwork 
for an ongoing, long lasting quality educational program. Developing 
shared beliefs among all in our school community is essential to the 
success of our students. We are engaged in the process of creating the 
written vision and mission that will reflect what we believe and live 
at Red Pump about student achievement and learning with a focus on 
excellence through purposeful instruction in the classroom.
    In both schools that I have led as Principal, we have understood 
the importance of the role the teacher plays in the classroom with data 
driven instruction and ongoing assessment of student progress. Our 
teachers work together as teams utilizing a protocol for examining 
student work as well as formative and summative assessments.
    Through this process with their grade level team and building 
specialists, they make collaborative decisions that inform instruction. 
Teachers know and understand their students and provide a 
differentiated program for student success. Decisions about individual 
student remediation, enrichment, and intervention are part of this 
process. Reflection is also an important aspect of this protocol 
bringing teachers back together to evaluate the effectiveness of their 
instruction to ensure all students are moving forward. As a school, our 
School Improvement Team develops an annual plan to keep our focus on 
what is crucial for the students we serve in our school. Additionally, 
one of the charges of this team is to find the time necessary, often in 
creative ways utilizing all staff members, to allow critical time for 
teachers to meet together. We provide this time for teachers to 
purposefully study student work instead of faculty meetings before or 
after the school day as well as carving out other times during the day. 
This process includes a cycle of analysis, knowledge of research based 
practices, instruction, varied assessments and reflection.
    School leaders like me take on a myriad of tasks and 
responsibilities that require expertise as an organizational manager 
and an instructional leader to meet effective leadership standards that 
include:
    <bullet> The articulation of a clear vision of high expectations 
and how the learning community can achieve the vision;
    <bullet> The creation of working conditions that minimize 
disruptions and expect teachers to work collaboratively to address 
student learning needs;
    <bullet> The recruitment of effective teachers and support 
personnel to realize the staffing goals of the school;
    <bullet> The design of systems to monitor individual student, 
grade, and school-level data to make instructional decisions;
    <bullet> The alignment of resources to support and accelerate the 
school's vision; and
    <bullet> Coordination of active engagement with families and 
community organizations to positively impact student outcomes--both in 
and out of the school building.
    Principals are confronted with a variety of complex tasks that 
require diverse skills, technical capabilities, high cognitive 
functioning and emotional intelligence. We must function under 
demanding circumstances, have strong coping skills, and a thorough 
understanding of the complex nature of the job. Principals are no 
longer just the single-faceted building managers of thirty years ago--
we must create professional learning environments where all adults are 
constantly improving their skills and knowledge, and challenging one 
another to serve the learning and developmental needs of every student.
    A well-established body of knowledge spanning the past thirty years 
proves what educators inherently have known--second only to a great 
teacher in the classroom, a quality principal will improve student 
academic achievement.
    The most recent decade of research focused on the 21st Century 
challenges facing our education system and further confirmed the direct 
correlation between effective school leadership and student 
performance, as well as the increasingly complex nature of a 
principal's job to meet the developmental and cognitive needs of our 
nation's diverse student populations. The same research substantiates a 
glaring need to do a better job of preparing principals and other 
school leaders to meet the needs of teachers and students. There must 
be greater investment in programs that develop and support all 
principals in the profession in setting and fostering a vision that 
puts student learning at the center of school's culture.
    Principals must be committed professionals with the ability to 
handle any number of challenges in a short period of time during the 
day--a recent study revealed what those in the profession already 
know--that principals typically engage in over forty different tasks in 
single day, likening the principals' school day to that of a Member of 
Congress on Capitol Hill running from hearing to hearing, and jumping 
from issue to issue. But just as you must be accountable to the 
constituents you represent at the end of the day, principals are 
accountable for all students--no matter the circumstances of the child 
and whether or not they come to school prepared, eager, and ready to 
learn.
    My fellow colleagues and I who serve as principals know that being 
held accountable for student achievement is an important part of our 
job, but measures of student achievement must be comprehensive and 
accurately reflect the local context in all dimensions of student 
learning.
    Many see our work as a calling. We are not finger-pointers, 
disgruntled complainers, or spotlight-seekers. And we don't pass the 
buck. The fact of the matter is clear-cut: We are, always have been, 
and will be highly accountable for what teachers teach, what students 
learn, and how schools perform.
    Principals accept the responsibilities for making sure our nation's 
schools provide a safe, healthy and high quality education for every 
child--and showing the results to prove it. Principals have and do face 
continuous school-based challenges to overcome that promise to be 
equally-significant in the coming decade and beyond.
    Add to this, the pressure on principals that has never been more 
intense:
    <bullet> We are expected to ensure that schools perform at ever-
higher levels with ever-shrinking budgets which all of you know far too 
well;
    <bullet> We are committed to preparing students to succeed in a 
world adults can scarcely imagine, especially now, as all of us try to 
keep up with the latest technological advances, for better or worse;
    <bullet> We must juggle and adhere to often conflicting state 
guidelines, priorities, and federal mandates;
    <bullet> And, most importantly, we are required to operate--day in 
and day out--in today's one-size-fits-all federal approach to 
accountability with little room for state and local input into such 
systems.
    Although, this one-dimensional snapshot of student and school 
success is seriously flawed, we have been doing our best over the past 
decade to measure up. However, we are now experiencing the true 
consequences of misguided federal-level policies with reports that over 
85% of our nation's schools are on the verge of failing. Principals 
know and common sense suggests this is simply not the case.
    The debate no longer persists and the question has been answered. 
From the principals' perspective, our current AYP system is too 
prescriptive, sanctions incorrectly categorize schools and have put 
into place what we believe are unintended consequences: an over 
misidentification of failing schools.
    While the policies of the No Child Left Behind Act have done much 
good for helping states set high standards and helping us learn more 
about our unique populations of students through disaggregation of data 
to make better instructional decisions, our nation's all-or-nothing 
yardstick for measuring school and student performance is simply 
flawed. As a result, we are now facing the unintended consequence of a 
misidentification of failing schools, and punitive labels acquired from 
a federal mandate that inaccurately measures student performance from 
an across-the-board, single snapshot in time.
    Principals live firsthand with this problem, which we hope the 
Committee will address comprehensively in the reauthorization process. 
Principals support reasonable solutions that will effectively put more 
balance, fairness, and accurate measures of student and school 
performance into our accountability system.
    As the Committee considers adjustments to correct our current blunt 
instrument accountability measures mandated from Washington, principals 
encourage you to take into account that:
    <bullet> The appropriate federal role in education is to promote 
equity and provide targeted resources to assist states and local 
districts. Federal policies should ask us to set high expectations, but 
also must support state- and locally-developed accountability systems, 
curriculum and instruction to best meet the needs of the students in 
the local school context.
    <bullet> Principals support assessments so that we can measure the 
progress of our students. But, federal policy must encourage and 
support state and local assessments that include growth models and 
multiple measures of student performance (both formative and summative) 
to accurately gauge social and emotional development, language fluency 
and comprehension, creativity, adaptability, critical thinking and 
problem-solving skills.
    <bullet> Assessment data should be used to inform instruction, be 
fair, flexible, authentic, and reflect students' progress toward 
academic proficiency.
    <bullet> Standards, curriculum and assessments must be closely 
aligned to be effective, and any assessment data must be available in a 
timely manner for practical or instructional use.
    <bullet> Standardized assessment scores must never be used as the 
sole or primary criterion to measure student performance; to rate, 
grade or rank principal, teacher, or school effectiveness; to allocate 
funds; or to take punitive measures against schools and/or school 
personnel.
    <bullet> State and local systems know there are a variety of ways 
in which children succeed and their achievements must be measured in 
multiple ways to accurately capture their emotional and social 
development, language fluency and comprehension, creativity, 
adaptability, critical thinking and problem-solving skills, in addition 
to proficiency in the core academic content areas.
    <bullet> Measuring these factors and the many others that 
contribute to improved student outcomes must provide a complete 
picture, not by an up or down, pass-fail, standardized test score that 
is designed at the federal level and that has no regard for the 
multitude of ways students progress. Assessment using a single metric 
produces a one-dimensional view of the child, the teacher, the 
principal, and the school.
    Simply put, those of us in the field who are working every day in 
our educational system want the federal government to give us the 
opportunity to have more input into the development and implementation 
of the accountability mechanisms.
    Thank you for the opportunity to provide this testimony. I look 
forward to answering your questions.
                                 ______
                                 
    Chairman Kline. Thank you, Ms. Hawley. Mr. Carvalho, you 
are recognized.

 STATEMENT OF ALBERTO M. CARVALHO, SUPERINTENDENT, MIAMI-DADE 
                     COUNTY PUBLIC SCHOOLS

    Mr. Carvalho. Thank you, Chairman Kline, Ranking Member 
Miller and members of the committee. I am honored to have the 
opportunity to testify before you today.
    I would like to begin by actually offering an early 
contract to Ms. Hawley. Obviously she is an outstanding 
principal. In Miami you have beach privileges and sunshine 
around the year. Not a bad deal.
    My name is--she said she will consider it. My name is 
Alberto Carvalho, and I have the privilege of serving as 
superintendent of Miami-Dade County Public Schools, the fourth 
largest school system in the Nation serving approximately 
400,000 students from every conceivable ethnic and economic 
background. I stand proudly before you today as a 
superintendent that has led this district into one of the 
highest performing urban districts in America, total population 
250,000 and higher, that is community population not student 
population, on the basis of two criteria: Number one, that the 
only national assessment of reading and math and science 
proficiency is NAEP, and as one of four districts out of 15,000 
nationally that is a finalist for the Nobel Prize of Education, 
the Broad Prize, which will be announced at the Library of 
Congress next week. Also a district that has been able to 
negotiate a landmark deal with teachers that provides for a 
tying of student performance to a teacher evaluation in 
addition to handsome financial incentives based on performance, 
as much as $28,000 on top of a teacher's base salary for 
outstanding performance. Also a superintendent that has 
negotiated different provisions for principals and leaders in 
my school systems that has promoted some and, unfortunately on 
the basis of performance, terminated others and demoted many 
more.
    You see, in Miami-Dade the use of data to analyze student 
performance, resource allocation, instructional interventions 
and human capital development has become the hallmark of my 
administration. Our success has drawn national attention 
because we have been able to move the bar on student 
achievement across the board, close the achievement gap for 
minorities and those in poverty, and continue to innovate even 
in the face of significant economic constraints. In fact, over 
the past 3 years, notwithstanding economic pressures attached 
to our recession, we have not terminated a single teacher for 
economic reasons. That is not to say that we simultaneously did 
not rehire about 2,000 teachers on the basis of performance.
    That being said, there are schools within my district that 
have made astounding improvements, have been recognized for 
remarkable gains in student achievement and yet because of 
accountability requirements face significant sanctions just 
months ago. I do not believe that it is this kind of 
dichotomous system that this learned body envisions for our 
Nation's schools. I believe that the Federal Government is 
perfectly positioned to address the inconsistencies which exist 
in the American system of education, which the Chairman alluded 
to initially, as far as its education accountability and to 
refine it in such a way that would be a tool for improvement, 
one that could be used to identify best practices and to 
encourage the replication of successful instructional models 
rather than simply imposing caustic sanctions.
    As a Nation I believe we have embarked on the State led 
Common Core standards movement. Assessments have become the 
barometer by which we measure progress, as they should be. We 
have placed a renewed emphasis on the importance of qualified 
and effective teachers and leaders, and of course we have 
introduced new and stricter levels of accountability into the 
field of education, and investment of Federal resources should 
rightly come with some degree of requirements for 
accountability for performance.
    But such accountability must not be a one-size-fits-all 
model. It must carry with it a degree of flexibility, not 
simply tying progress to lockstep requirements that compare 
different cohorts of students, as is the case with the current 
Adequate Yearly Progress, AYP, designation. Instead, progress 
should be determined by measuring academic and developmental 
growth of individual students from year to year using growth 
targets rather than simply arbitrary proficiency targets.
    Further, there should be recognition afforded to those 
States, such as my own State of Florida, that have robust, 
logical, high quality accountability systems in place, and not 
require the overlay of a discordant system which often 
convolutes the overarching goal of accountability and serves 
often to confuse the public it serves. The manner in which we 
chose to address the Federal accountability requirements was to 
develop a highly sophisticated method of using data to drive 
our reform conversations and ultimately our decision making.
    The need to closely scrutinize student performance data and 
effectively allocate resources in a timely fashion led to the 
development of our DATA/Com process. As part of DATA/Com, the 
principal and leaders of struggling schools have the 
opportunity to meet with me personally, and I do have 450 
principals, with me and my cabinet to review the latest student 
performance data. Much like a physician reviews an x-ray or lab 
results, we discuss the symptoms and prescribe an antidote in 
realtime. Through the use of data schools get what they need on 
the fly as they should, whether it is an additional reading 
interventionist, whether it is additional instructional 
materials or to acquire money to run an after school program or 
simply remove a teacher who is highly ineffective.
    Without question, the advent of educational accountability 
has not been without challenges. Few I believe will argue that 
there is not room for improvement to the current No Child Left 
Behind legislation, such as, and I offer but a few 
recommendations: A need to move from proficiency targets to 
growth targets that follow the same cohorts of students over 
time. A litany of annually escalating sanctions that force 
improving schools to change strategies before anything has time 
to work is unreasonable and contrary to what the research 
indicates. A failure to differentiate between historically low 
performing schools and those that need minor adjustments on 
tweaks based on stringent AYP proficiency standards confuses 
stakeholders. An incomplete set of indicators that can gauge 
the health of a high school more accurately, such as graduation 
rates, dual enrollment participation success, industry 
certification, college and career readiness. And finally, this 
issue where large amounts of funding are being diverted to set 
aside services that have failed to date to yield more than 
limited effects on student achievement.
    Despite these nuances No Child Left Behind and the Federal 
Government through increased accountability measures have 
forced us to address the glaring achievement gaps that have 
plagued many communities across our country and have forced the 
Nation to address historic equity issues. In Miami-Dade we have 
long embraced accountability as a tool to improve, and we 
recognize that this law certainly began a conversation around 
the growth and learning gains made by individual subgroups, 
schools as a whole and entire districts. It forced the 
recognition, most importantly, of pockets of under-performing 
kids often hidden behind the curtain of performing schools and 
districts.
    In closing, I submit to you that the Federal Government 
should adopt a differentiated model of accountability which 
provides flexibility and loosened sanctions for high performing 
districts while increasing oversight in districts and States 
that fail to make progress. How you proceed in structuring 
accountability policy is critical. In my opinion those nations 
who are currently outperforming the U.S. on international 
assessments, such as the PEZA or TEMS, are not debating 
educational structures or sanctions. Rather they are engaged in 
conversations about teacher and leader quality, about 
conversations regarding the economic viability of their work 
forces. These are the issues we must engage in if we are to 
live up to the promise of a quality public education for all 
and ensure our position as a global leader.
    Thank you very much.
    [The statement of Mr. Carvalho follows:]

       Prepared Statement of Alberto M. Carvalho, Superintendent,
                    Miami-Dade County Public Schools

    Thank you very much Chairman Kline, Ranking Member Miller, and 
members of the committee. I am honored to have the opportunity to 
testify before you this morning regarding the federal role in public 
school accountability.
    My name is Alberto Carvalho and I have the privilege of serving as 
Superintendent of Miami-Dade County Public Schools, the nation's fourth 
largest school district. Miami-Dade is arguably one of the most diverse 
urban districts in our nation, serving over 400,000 students, from 
every conceivable ethnic and economic background, and at every level of 
educational preparedness and capacity.
    The use of data to analyze student performance, resource 
allocation, instructional interventions, and human capital deployment, 
has become the hallmark of our district operation. Our success has 
drawn national attention because we have been able to move the bar on 
student achievement across the board, close the gap for minorities and 
those in poverty, and continue to innovate even in the face of 
significant economic constraints. That being said, there are schools 
within my district that have made astounding improvements, have been 
recognized for the remarkable gains in student achievement and yet, 
because of the manner in which we implement accountability, faced 
significant sanctions just months ago. I do not believe this is the 
kind of dichotomous system that this learned body envisions for our 
nation's schools.
    I believe that the federal government is perfectly positioned to 
address the inconsistencies which exist in the American system of 
education accountability and to refine it in such a way that it would 
be a tool for improvement; one that could be used to identify best 
practices and to encourage the replication of successful instructional 
models, rather than simply imposing sanctions.
    As a nation, we have embarked on the state-led common core 
standards movement. Assessments have become the barometer by which we 
measure progress. We have placed a renewed emphasis on the importance 
of qualified and effective teachers. And, of course, we have introduced 
new and stricter levels of accountability into the field of education.
    An investment of federal resources should rightly come with 
requirements for accountability for performance, but such 
accountability must not be a one-size fits all model. It must carry 
with it a degree of flexibility, not simply tying progress to lock-step 
requirements that compare different cohorts of students, as is the case 
with the current Adequately Yearly Progress (AYP) designation. Instead, 
progress should be determined by measuring academic and developmental 
growth of individual students from year to year using growth targets 
rather than arbitrary proficiency targets. Further, there should be 
recognition by the federal administration of those states, such as 
Florida, that have robust, high quality, accountability systems in 
place, and not require the overlay of a discordant federal system, 
which often convolutes the overarching goal of accountability and 
confuses the public.
    In Miami-Dade, No Child Left Behind (NCLB) has served as the 
catalyst for our school system to take a more laser-like approach to 
school reform efforts and to be more strategic in the allocation of our 
resources.
    The manner in which we chose to address the federal accountability 
requirements was to develop a highly sophisticated method of using data 
to drive our reform conversations and ultimately our decision making. 
We are targeting our efforts to ensure that when students graduate they 
are career or college ready. We have made decisions that have not 
always been popular, but we have been able to do so by informing our 
communities and having heart-to-heart conversations--around data--as to 
why students in certain communities, predominantly high poverty, high 
minority neighborhoods, are not achieving at the same rate as their 
more affluent, less diverse peers.
    The need to closely scrutinize student performance data and 
effectively allocate resources in a timely fashion led to the 
development of our DATA/Com process. As part of DATA/Com, the principal 
of a struggling school has the opportunity to meet with me and my 
entire Cabinet to review the latest student performance data, much like 
a physician reviews an x-ray or lab results. We discuss the symptoms 
and prescribe an antidote in real-time. Through the use of data, 
schools get what they need ``on the fly,'' whether it is an additional 
reading interventionist, instructional materials, or money to run an 
afterschool tutoring program. This is one example of how federal 
accountability has resulted in the implementation of a practice which 
has spurred success, but is only effective if the flexibility to 
allocate resources remains at the local level.
    Without question, the advent of educational accountability has not 
been without challenges, and we have learned a great deal. However, few 
will argue that there is room for improvement to the current NCLB 
legislation such as:
    <bullet> A need to move away from proficiency targets to growth 
targets that follow the same cohort of students;
    <bullet> A litany of annually escalating sanctions that force 
improving schools to change strategies before anything has time to 
work;
    <bullet> A failure to differentiate between historically low-
performing schools and those that need minor adjustments based on 
stringent AYP proficiency standards;
    <bullet> Inclusion of other subjects such as writing and science;
    <bullet> A lack of comprehensive indicators that can gauge the 
health of a high school more accurately such as graduation rates, dual 
enrollment, industry certification, college and career readiness; and
    <bullet> Large amounts of money diverted into supplemental services 
that have failed, to date, to yield more than limited effects on 
student achievement.
    Despite these nuances, NCLB and the federal government, through 
increased accountability measures, has forced us to address the glaring 
achievement gaps that plague many communities across this land and has 
forced us to address historic equity issues that were prevalent in our 
schools. In Miami-Dade we have long embraced accountability as a tool 
to improve, and we recognize that NCLB certainly began the conversation 
around the growth and learning gains made by individual subgroups of 
students within traditionally high performing schools, as well as shone 
a spotlight on chronically low performing schools.
    I submit to you that the federal government should adopt a 
differentiated model of accountability which provides flexibility and 
loosens sanctions for high performing districts, while increasing 
oversight in districts and states that fail to make progress. How you 
proceed in structuring accountability policy is critical. Those nations 
who are currently outperforming the U.S. on international assessments 
such as the PISA or TIMMS are not debating educational structures or 
sanctions; rather they are engaged in conversations about teacher and 
leader quality. These are the issues we must engage in if we are to 
live up to the promise of a quality public education for all and ensure 
our position as a global leader.
    In Miami-Dade, we have taken a differentiated approach to school 
reform and launched the Education Transformation Office (ETO) with 
School Improvement Grant (SIG) funding. We tier schools by degree of 
need based on current and historic data and create support and 
monitoring processes reflective of each school's academic standing. 
Additionally, SIG requirements have allowed us to replace ineffective 
administrators and teachers while recruiting those with a proven record 
of success, to launch an array of wraparound services to target at-risk 
students, and to upgrade the technological infrastructure to ensure 
that students are learning in 21st century classrooms. Through our use 
of the SIG funds and the implementation of our ETO program, we aren't 
simply focused on turnaround; our goal is to accelerate and sustain 
improvements into the future. Our ETO processes have been recognized by 
the USDOE, the FLDOE and districts throughout the country, and we have 
seen real improvement in these schools and the students who attend 
them.
    Last year, the ETO in Miami-Dade was assigned 19 ``persistently 
lowest-achieving schools.'' Of the 19, 13 are now either B or C and 
none are rated F. This year, the ETO oversees 26 schools through SIG II 
with our district curriculum and instruction team supporting and 
monitoring another 35 schools that are dangerously close to being 
identified as persistently low performing. This method of tiering 
schools in need of improvement has allowed us to be more strategic in 
resource deployment and insures us from a revolving door approach to 
school improvement. Schools are provided the attention they need and, 
much like our teacher coaching model, they are weaned from district 
oversight as they begin sustaining their own improvements 
independently. This is the national accountability approach that I 
proffer to you today.
    In concert with the improvement of our struggling schools, our 
district has distinguished itself among other large urban districts 
throughout the country. M-DCPS leads urban schools in reading and 
mathematics at the fourth and eighth grade levels on the National 
Assessment of Educational Progress (NAEP). As a Broad Finalist, our 
innovative systems and student performance in narrowing the achievement 
gap have been recognized nationally.
    Surely, these outcomes should be rewarded by the loosening of 
sanctions and the practices that have led to them being replicated in 
other districts nationally. Instead, while school grades have increased 
(despite ever-increasing state standards of proficiency), our 
graduation rates improved at a faster rate than the rate of growth for 
the State itself, and our outcomes on the NAEP Trial Urban District 
Assessment rank among the highest in the nation, the number of schools 
that are considered in need of improvement under the NCLB Federal 
guidelines has continued to increase. Only 11% of all schools in 
Florida are deemed to have made AYP this past year while 58 percent of 
them are rated ``A.'' This paradox is inconceivable to educators and 
difficult to explain to communities who have witnessed the performance 
of their neighborhood schools rise to unprecedented levels. At its root 
is the struggle between competing accountability systems--the one 
mandated under NCLB and Florida's own A+ Plan--Differentiated 
Accountability Model. Both models are rigorous, demand performance 
accountability, and require the public to be informed regarding the 
quality of the instruction being delivered. They are, however, 
discordant in the definition of progress, the sanctioning of schools 
and the general interpretation of the law.
    We have rekindled the beacons of hope in communities that have, for 
too long, suffered from the stigma of being labeled a failing school, 
yet threatened them with sanctions and the threat of closure right when 
they have begun to demonstrate significant progress and posted dramatic 
numbers in terms of student achievement outcomes. Two examples I can 
offer you are Miami Edison and Miami Central Senior High Schools. Both 
schools are located in two of the poorest communities in our district. 
For years, the two schools had been rightly labeled as ``in need of 
improvement'' and rated F by the State. Last year, both schools earned 
a grade of ``C'' and posted their highest graduation rates since the 
advent of accountability. In fact, Miami Edison increased its 
graduation rate--in one school year--a remarkable twenty percentage 
points. Yet, despite these undeniable improvements, both schools were 
threatened with closure by the State in both 2010 and 2011 due to 
prescriptive and escalating sanctions deemed necessary by the state in 
its interpretation of NCLB. Certainly this is an unintended consequence 
of federal and state laws that do not work in concert with one another.
    In fact, we now know that a school can be in full compliance with 
NCLB and not be raising student achievement, while it is possible to 
raise student achievement substantially and not be in compliance with 
the law's current requirements. These nuances will surely need to be 
ironed out with the reauthorization of ESEA.
    Our district has been forced to reduce its budget by over $1.6 
Billion in recent years, yet we have never waivered or lost focus on 
the true measure of our success: our return on investment, which is 
reflected in individual student achievement, school performance, 
graduation rates, and the closing of the achievement gap for minority 
students and those living in poverty. We have but one strategic goal in 
our district and that is Student Achievement. Everything we do, every 
resource we invest, must be aligned to that goal or we don't do it.
    Through innovation, careful planning and, yes, a measured degree of 
sacrifice, we have been able to protect our classrooms, maintain a high 
quality workforce without laying off a single full time teacher for 
economic reasons, and establish a healthy reserve, ensuring the 
District's financial position remains stable and sustainable going 
forward. We would not have been able to do so without the injection of 
dollars made available to us by the federal government. Monies from 
Race to the Top, School Improvement Grant (SIG) and Title I have 
allowed us to continue to provide a high quality education for all of 
our students while investing in human capital and attracting the best 
and the brightest in their field to teach in our persistently low 
performing schools. This month, we will distribute the first round of 
bonuses, based on student achievement outcomes, to thousands of 
teachers in our district. While our state has made less and less of an 
investment in education, our nation has recognized that without a 
learned populace our position in the global marketplace as a world 
leader in innovation and invention is in peril. Our federal government 
has recognized that if these challenges are not adequately addressed, 
inequities in wealth and opportunity will limit our nation's economic 
potential and threaten our democratic ideals.
    My testimony today would be incomplete without a nod to my heritage 
and my own personal experience. You see, today, I stand before members 
of Congress in the greatest nation in the world, representing a $3.6B 
enterprise. An enterprise that creates great Americans, that develops 
the mind of future scientists, teachers, and entrepreneurs, but I too 
am a product of the promise that is America. For I came to this country 
when I was just 17 years old; unable to speak the language, one of 6 
siblings living in a two-room apartment in my native Portugal. Were it 
not for our core belief that all children can learn and that all 
students deserve a quality public education, I would not have broken 
out of my own cycle of poverty.
    In closing, Congress should, and is, as evidenced by holding this 
very hearing today, reevaluate its role in public school 
accountability. Clearly, in order for us as a people to maintain our 
economic and democratic prosperity, we must reflect on the lessons 
learned from NCLB and achieve a balance between accountability and 
flexibility to state and local school districts. The federal government 
should support the state-led common core standards movement and 
continue to incentivize states to join the movement as well as develop 
and participate in assessments that evaluate mastery of said standards. 
It should reorient legislation away from annually escalating sanctions 
to a more differentiated, longer intervention period of improvement in 
order to allow strategies to gain traction at historically low 
performing schools. It should continue to invest, through programs such 
as Race to the Top and the SIG which assist states and districts in the 
development of data systems that can effectively link student 
achievement and teachers. Finally, as our demographic landscape 
continues to become more and more diverse, it should extend the window 
for English language acquisition from one to three years; allowing 
these learners a more adequate period of time before they are expected 
to be at-par with their native peers.
    Our educational systems have evolved dramatically in the past nine 
years, no doubt due to the influence of legislation at both the federal 
and state level. It is now time for us to evolve into the next stage of 
standards-based, data-driven reform; shifting from the current focus on 
prescriptive compliance requirements that have proven to be less than 
effective to a more meaningful and impactful accountability model that 
focuses on what surely is the most important schooling outcome of all: 
college and career readiness, as prerequisites of graduation. We must 
embrace an accountability model which incentivizes innovation; one that 
focuses on building state and local capacity to improve learning 
opportunities for all students, one that invests in research, 
evaluation, and technical assistance, and intervenes in consistently 
low-performing districts and schools, but allows enough time for 
reforms to take hold before insisting that further sanctions be 
applied. We must focus on collaboration and the dissemination of best 
practices which can inform state and local efforts to improve student 
achievement and close achievement gaps; in effect, to move the 
discourse from crisis rhetoric to one about solutions partnerships. To 
achieve this, it is going to take federal, state, and local 
cooperation.

Recommended changes proposed by Miami-Dade County Public Schools
            Elementary and Secondary Education Act (No Child Left 
                    Behind)
    Reauthorize and modify the Elementary and Secondary Education Act 
(No Child Left Behind Act 2001) to:
    <bullet> Recognize student progress in lieu of the current all-or-
nothing approach and recognize degrees of progress for schools;
    <bullet> Eliminate sanctions associated with not meeting adequate 
year progress;
    <bullet> Support uniform national assessments aligned with national 
standards to allow for valuable comparison of student achievement among 
states;
    <bullet> Ensure fair accountability by providing flexibility for 
special education and English Language Learners (ELL's) and other 
formula adjustments, and by requiring identical tests for Title I and 
Title III students in non-public schools;
    <bullet> Include other indicators for accountability such as dual 
enrollment industry certification, AP, graduation rates, dropout 
attendance suspensions in determining AYP and align accountability 
standards with those in the School Improvement grant;
    <bullet> Reward and retain quality teachers by supporting measures 
that raise pay for teachers in fields with shortages and in high-needs 
communities; that create career ladder paths; and that assist with 
rising housing costs;
    <bullet> Establish new qualification requirements for teachers and 
paraprofessionals to ensure that teachers are highly skilled in content 
areas, as well as pedagogy;
    <bullet> Allow districts to use Supplemental Education Services 
(SES) funds to provide tutoring to eligible students as well as pay for 
monitoring and other implementation costs of the out of the required 
20% set-aside and ensure that public schools are not unfairly prevented 
from providing remedial services to students;
    <bullet> Require that funding to SES private providers be 
contingent on outcomes on norm-referenced assessments developed and 
administered by the states and/or the district; and
    <bullet> Allocate immigrant funds under Title III based on the 
number of recently arrived foreign-born students.
                                 ______
                                 
    Chairman Kline. Thank you, sir. Dr. Sichel.

STATEMENT OF DR. AMY F. SICHEL, SUPERINTENDENT, ABINGTON SCHOOL 
                            DISTRICT

    Dr. Sichel. Thank you, Chairman Kline, Ranking Member 
Miller and members of the committee. It is my pleasure to be 
here with you this morning. Thank you for inviting me to 
testify today regarding the reauthorization of ESEA and 
specifically how No Child Left Behind Federal regulations 
impact public schools. I am Amy Sichel. I am superintendent of 
the Abington School District. I am the President of the 
Pennsylvania Association of School Administrators and elected 
member to the governing board of the American Association of 
School Administrators. So it is my pleasure to represent my 
fellow superintendents.
    Abington School District is a suburban Philadelphia 
district with 7,500 children, and we are both racially and 
economically diverse. I have 35 years of experience in one 
school district, Abington, with 11 years as a school 
superintendent. Although we have always believed in the 
importance of academic standards and common assessments to 
drive accountability, some aspects of NCLB have been extremely 
positive and had a very positive impact in the Abington School 
District. Since the early 1990s Abington has had a goal setting 
approach with a model of continuous improvement. NCLB required 
us to dig deeper by looking at the results of the disaggregated 
groups, as well as the all student group, and it has improved 
our practice of analyzing test results, strengthening teaching 
and learning, and produced incredible results for the Abington 
School District.
    However, the present NCLB model as a myriad of weaknesses. 
To begin with, a goal of 100 percent proficiency by 2014 is 
unrealistic. Public schools educate the best and the brightest, 
as well as the students with the greatest educational needs and 
those with the severest of disabilities. For all students the 
approach should be based on growth, academic and developmental, 
tied to academic proficiency and standards. Good teaching and 
learning require a standards-based curriculum with benchmarks 
in accountability based on multiple measures. A system based on 
passing or failing a single target leads to failure, failure of 
students, of schools and districts. It creates a lack of 
credibility to educators by parents and guardians and promotes 
an agenda that is not in the best interest of American 
children.
    The system of continuous improvement that is needed 
requires multiple assessment measures that are reliable and 
valid with attainable goals and the capability to document 
individual student and school growth.
    Let me share with you a quick review of what works in the 
Abington School District. In reviewing our disaggregated data 
for NCLB, it was revealed that two distinct achievement gaps 
existed for African American children and for children with 
IEPs, special education children. In response to this 
information we developed a novel initiative called 
Opportunities to Learn, OTL. Under OTL the district tracked the 
secondary program for grades 7 through 12 and included to the 
maximum extent possible students with IEPs and all students in 
mainstream classes, as well as organizing the school day to 
provide academic supports during the day and not at the expense 
of the arts. The plan resulted in each core subject offering 
only two levels of a rigorous college preparatory curriculum, a 
college preparatory course or an honors or AP course. Formative 
assessments were used to identify student's needs so that those 
who were not proficient on the Pennsylvania system of 
assessment received individualized support.
    Since the implementation of OTL the disparity between the 
performance of the district's all student group and the 
district's African American and IEP groups has narrowed 
significantly. Along with this our percent of students going on 
to postsecondary education has increased from 80 to 90 percent. 
Our data is in my written testimony.
    In addition to all schools attaining adequate earlier 
progress for the last 3 years, our elementary schools have 
attained it since 2002. The opportunities to learn initiative 
with the focus on data driven strategies address the challenges 
and attain positive results. These successes and documented 
achievement levels should be a part of the reauthorization of 
ESEA with the following provisions:
    One, invest in and support a standards-based assessment 
academic model driven by assessment and accountability.
    Two, support a growth model for student achievement that 
focuses on individual student performance with multiple 
measures.
    Three, allow States and districts to support different 
growth rates based on the individual needs of students.
    Four, base ESEA on attainable goals for all students and 
subgroups congruent with State standards.
    Five, encourage the use of research-based approaches based 
on, quote, what works to make instructional and organizational 
decisions.
    Six, feature school districts that demonstrate that we can 
produce proficient students and encourage others to replicate 
those successful models.
    Seven, and most importantly, place the locus of control for 
accountability at the State level with local districts 
developing assessment models based upon individual student 
growth. Local school districts, such as Abington, are moving in 
ways that improve academic outcomes for all children.
    Please stop focusing on punitive accountability measures 
prescribed by NCLB. This disheartens students, parents, 
teachers and administrators and undermines the success of 
public education in this country.
    Thank you for your time this morning.
    [The statement of Ms. Sichel follows:]

  Prepared Statement of Dr. Amy F. Sichel, Superintendent of Schools,
                        Abington School District

    Chairman Kline, Ranking Member Miller, and Members of the 
Committee: Thank you for inviting me to testify today regarding the 
reauthorization of the Elementary and Secondary Education Act (ESEA) 
and specifically how the No Child Left Behind federal regulations 
impact public schools throughout the nation, in the Commonwealth of 
Pennsylvania, and specifically in the Abington School District. My 
testimony is from the perspective of a public school educator, with a 
breadth of educational knowledge and experience.
    I am Amy Sichel, the Superintendent of Schools for the Abington 
School District in Montgomery County, Pennsylvania as well as an 
Adjunct Associate Professor at the Graduate School of Education, 
University of Pennsylvania. I serve as the President of the 
Pennsylvania Association of School Administrators and am an elected 
representative of the Governing Board for the Commonwealth of 
Pennsylvania to the American Association of School Administrators. 
Abington School District is a suburban Philadelphia district with 7500 
students and is both racially and socioeconomically diverse. I have 
over 35 years of experience as an educator, which includes 11 years as 
a school Superintendent, all within the Abington School District.
    I am here to comment about the impact of the NCLB federal 
regulations and reporting requirements on school districts and will 
provide examples from our experiences in the Abington School District. 
Please know that the Abington School District complies with all federal 
regulations, those of the Commonwealth of Pennsylvania, and that of our 
local school board.
    It is important to begin by stating that some aspects of NCLB have 
had a positive impact on the schools throughout the nation and 
specifically the Abington School District. In Abington we have always 
believed in the importance of having academic standards and common 
assessments to drive accountability. Since the early 1990s, the 
Abington Schools have used a goal-setting approach based on a model of 
continuous improvement for all students. Beginning in 2002, 
Pennsylvania's compliance with NCLB reinforced our long practice of 
accountability. In fact, the NCLB requirement to ``dig deeper'' by 
looking at the results for disaggregated groups as well as at the 
results for all students has improved our practice, strengthened 
teaching and learning, and produced incredible achievement results in 
Abington.
    However, it is important to note that the present NCLB model has a 
myriad of weaknesses. To begin, the goal of 100% proficiency by 2014 is 
unrealistic. This is equivalent to a ``one size fits all'' model. As 
you know, public education in the United States is offered to everyone 
regardless of race, creed, economic status, etc. Public schools educate 
the best and the brightest as well as the students with the greatest 
educational needs and with the severest disabilities. For all students, 
the approach should be based on growth and tied to academic proficiency 
and standards. One test, at one snapshot in time with a goal of all 
students achieving proficiency, continues to reinforce a Pass/Fail 
model and does not promote improved growth in student achievement. An 
accountability matrix based on 45 cells of All Students with 
disaggregated groups to define Adequate Yearly Progress is unrealistic 
and archaic. Good teaching and learning require a standards-based 
curriculum, with benchmarks and accountability based upon multiple 
measures. A system based upon Passing or Failing a single target just 
leads to failure--failure of students, of schools, and of districts; 
creates a lack of credibility of educators by parents/guardians; and 
promotes an agenda that is not in the best interest of the American 
children.
    A system of continuous improvement for all students is needed. It 
must include multiple assessment measures that are reliable and valid 
with attainable goals and the capability to document individual student 
and school growth. Let me share with you a quick review of what works 
in the Abington School District where the success for each student is 
expected, monitored, and being accomplished.
    As I already mentioned, since the early 1990's, Abington School 
District has used a continuous improvement model to establish academic 
goals for each school. Prior to NCLB, Abington's principals and 
teachers were given annual goals, which were based upon the expectation 
that, when compared to the previous school year, at least 5% more 
students would be proficient as demonstrated by state-driven and local 
measures. All schools had improvement teams where administrators, 
teachers, and parents developed research-based strategies to foster 
student achievement. Abington School District's overall performance on 
standardized and state-required achievement tests has been 
significantly above state and national averages. With the enactment of 
NCLB, annual goals have been based upon the percents of students 
demonstrating proficiency as required by the Commonwealth of 
Pennsylvania. In cases where a school has met or exceeded the state 
requirement, we have raised the bar for that school.
    In reviewing disaggregated data for NCLB in 2005, it was revealed 
that two distinct achievement gaps existed: the achievement levels of 
African-American students and the achievement levels of Special 
Education students.
    In response to this information, I developed a novel initiative 
called Opportunities to Learn (OTL), presented it to the board of 
school directors and, with their approval, began our work toward 
providing a rigorous academic curriculum for all students. OTL began 
with a district-wide committee consisting of more than 100 teachers, 
administrators, students, parents, school board members, and community 
representatives. The committee focused on issues related to 
identifying, collecting, and using student data to improve instruction 
and achievement; student placement in academic courses; support systems 
to help students achieve; and parental involvement. Under this 
initiative, the district developed and implemented a plan to ``de-
track'' the secondary school program (grades 7 through 12); to include, 
to the maximum extent possible, students with IEPs in mainstreamed 
classes; and to organize the school day schedule to provide academic 
support opportunities, where needed, during the school day and not at 
the expense of the Arts.
    The plan resulted in each core subject area offering only two 
levels of rigorous college preparatory instruction: a college 
preparatory course and an Honors/Advanced Placement course. This 
approach was based on the research approach of Dr. Jeannie Oakes of the 
Ford Foundation and formerly a professor at UCLA and the model endorsed 
by Mr. Jay Mathews, education columnist for The Washington Post. 
Students were given increased opportunities to apply to take Honors/
Advanced Placement courses. Courses in mathematics and science were 
strengthened, and expectations were raised so that all students would 
complete both Algebra I and biology in one academic year rather than 
over two years. Formative assessments for benchmarking were used to 
identify students' needs so that all students who were not proficient 
on the previous administration of the Pennsylvania State System of 
Assessment (PSSA) received individualized support. These interventions 
included remedial courses during the school day in English/social 
studies and in mathematics/science, which complemented the college 
preparatory program and were included in students' schedules. Local 
assessments were used to monitor progress. Planned courses of study 
were revised to emphasize Pennsylvania's Academic Standards. 
Essentially, the goal of academic proficiency became the priority by 
providing rigorous college and career preparatory instruction to all.
    Since the implementation of Opportunities to Learn, the disparity 
between the performance of the district's All Student group and the 
district's African-American and IEP disaggregated groups has been 
narrowed significantly. In particular, at the secondary level the 
disparity between the percentages of the All Student group and those of 
the disaggregated groups achieving advanced/proficient scores on the PA 
assessment in reading and mathematics has been reduced by anywhere from 
7 to 36 percentage points. In mathematics the African-American group 
has increased from 54% to 60% proficient and the IEP group from 28% to 
61% proficient in five years. The African-American group has risen from 
63% to 68% proficient in reading, and the IEP group from 34% to 66% 
proficient in reading. This has all been accomplished with the percent 
of the All Student group achieving proficiency being far greater than 
the average percents of students who are proficient at both the state 
and national level.
    In addition, cohort data for students with IEPs provide evidence 
that, as students moved from grade 8 to grade 11, the percentage of 
those who are advanced/proficient on the state assessment and on other 
measures increased as did the percentage of students passing courses. 
Most importantly, all Abington School District schools attained 
Adequate Yearly Progress (AYP) for the last three years and the 
elementary schools since 2002. The Opportunities to Learn initiative, 
with the focus on data-driven strategies, addressed the challenges and 
achieved these positive results. Also, we realized some unexpected 
positive results, for over the five-year period of the initiative, the 
percent of students graduating and continuing on to higher education 
increased from 80% to 90% with over $4 million in scholarships awarded 
to the graduating class in June of 2011. The College Board recognized 
the Abington School District with an AP Honor Roll designation. This 
recognition reflects the district's increased enrollment in AP courses 
and continuing to maintain high results on the AP tests. There is no 
doubt that the disaggregated groups, as well as the All Student group, 
benefited greatly.
    All involved have taken time to reflect about this initiative and 
its results, because it has not only benefited the students but has 
also increased our knowledge with respect to focused, carefully 
crafted, goal-oriented results based upon academic standards and 
multiple assessments as well as with respect to the role of leadership 
as in affecting system change. The staff, community, and the entire 
district administration rolled up their sleeves and demonstrated a 
commitment to the common goal of ``Excellence is our Standard and 
Achievement is the Result!''
    These successes and documented increases in student achievement 
lead me to ask you to reauthorize ESEA with the following provisions:
    1. Invest in and support a standards-based academic model driven by 
assessment and leading to accountability.
    2. In ESEA, support a growth model which focuses on individual 
student performance with multiple measures and approaches to promote 
and document student achievement. Use of standardized measures, 
formative assessments, etc., which are reliable and valid with multiple 
pathways to document student growth are required.
    3. Allow states and districts to recognize and support different 
growth rates based upon the individual abilities and needs of students.
    4. Base ESEA on believable and attainable goals and expectations 
for all students and subgroups congruent with state academic standards.
    5. Encourage the use of research-based approaches based on ``what 
works'' to make instructional and organizational decisions.
    6. Investigate and research school districts throughout the country 
that demonstrate that we can produce proficient students. Feature these 
districts and schools nationally and help others to replicate these 
successful models, demonstrating ``what works.''
    7. Most importantly, place the locus of control for accountability 
at the state level with local districts developing assessment models 
based upon individual student needs for growth.
    Local school districts, such as Abington, are moving in ways that 
improve academic outcomes for all children for we are accountable to 
our students, our parents, our community, our local school board, and 
our state. All too often successful models rarely receive attention and 
recognition. Please give us the benefit of the doubt and stop focusing 
on the punitive accountability measures prescribed by NCLB. This 
disheartens students, parents, teachers, and administrators and 
undermines the success of public education in this country.
    Thank you for your time this morning.
                                 ______
                                 
    Chairman Kline. Thank you, Dr. Sichel. Thank you to all the 
witnesses for terrific testimony and for participating with us 
today as we grapple with a pretty, pretty tough objective here. 
I think Mr. Miller and I talked many times, and there are times 
when we are in total agreement. And usually that total 
agreement centers around much of what you talked about; that 
is, you have to have data, you have to have information, you 
have to have it disaggregated. I think all of you mentioned 
that at one point or another. And it is clear that that is an 
outgrowth of the No Child Left Behind law. And I find a 
widespread acceptance of that notion that you need this data, 
and it needs to be broken out and disaggregated.
    And then we start disagreeing on about what ought to be 
next and we continue to grapple. So it is very important to us 
to have you here today and listen to what you are doing to make 
sure that you have got a good accountability and assessment 
system.
    Ms. Skandera, you talked about the A to F system, which 
sort of grew out of Florida. Can you talk about how you 
implement that and how that works and how that helps you in 
assessing and ensuring that there is accountability?
    Ms. Skandera. Mr. Chairman, members of the committee, with 
the A through F system it allows us, as I mentioned earlier, to 
differentiate between our schools in a more effective manner. 
Today, according to No Child Left Behind, 87 percent of our 
schools are failing. This will allow us to go beyond that pass-
fail measurement.
    In the school grade calculation for elementary and middle 
schools we have an expectation to measure 50 percent based on 
our students on grade level, so capturing some of those things 
that we already captured through No Child Left Behind and AYP. 
But in addition, we are measuring 50 percent based on growth 
and progress of our students. And we are looking at that 
through a valued-added model. And in addition, we are looking 
at other academic indicators for a small percentage of the 
school grade that are proven and linked to improved student 
achievement.
    So at the elementary and middle school level those are the 
things that we are focusing on with a double emphasis on our 
lowest 25 percent of performing students.
    At the high school level we are looking at cohort growth, 
graduation rates and graduation rate growth, as well as other 
college and career readiness indicators, such as ACT, PSAT, 
vocational education programs certified nationally and linked 
to graduation.
    Chairman Kline. Who assigns the grade?
    Ms. Skandera. Mr. Chairman, members of the committee, the 
State assigns the grade based on student achievement data 
provided by districts and schools. We do the calculation and 
then provide that back to our schools so that they do provide 
the data, our schools and districts.
    Chairman Kline. Thank you. Ms. Hawley, where did the name 
Red Pump School come from? That was the subject of some 
discussion up here and I drew the straw. I have to ask.
    Ms. Hawley. It is the chosen footwear. No.
    Chairman Kline. I asked for that, okay.
    Ms. Hawley. It is the name of the road. It is very 
creative.
    Chairman Kline. Okay. Mystery solved. I drew the short 
straw back here and we had to know, so thank you.
    You indicated in your testimony that there were overly 
prescriptive Federal rules on schools, and I think we have 
heard that theme often, and that sometimes those rules 
involving the AYP system actually hurt your ability to improve 
instruction. Did I hear that right? And if that is so, can you 
give me some example of that?
    Ms. Hawley. Yes. Because currently the program is set up 
that, AYP is set up that it is a one-size-fits-all. And what 
hurts us is the tamping down onto the school systems, local 
school systems of specific standards and regulations, while we 
at the local level are trying to help individual students 
progress, but there is a disconnect between Federal standards 
and what we are doing, which is really looking at individual 
student progress as opposed to one standard that we hope all 
children will reach.
    Chairman Kline. Thank you. I am going to try to keep myself 
to the rule here. I have got about 20 seconds left. So what I 
would like to do is yield to Mr. Miller.
    Mr. Miller. Thank you very much. And I really welcome all 
of your testimony. To me it is an indicator of how far we have 
moved from the original consideration of No Child Left Behind. 
At that time, if we had talked about Common Core standards we 
probably would have been lynched, but now the governors have 
taken on that decision and they have decided that they want 
this for their States, and I think they see it as part of the 
economic competitive model, either you are going to have these 
standards and students performing at these standards or you are 
not.
    The question comes, if that is the North Star, if those are 
the standards, then a lot of things can flow from that in terms 
of flexibility, a growth model can flow from that. I remember 
my State of California wanted a growth model about 7 or 8 years 
ago and when they published it, a good day would be when you 
grew to nowhere, a bad day would be when you could get credit 
for growth and yet the student was farther behind. So that kind 
of was a bad data system. That was something I didn't want to 
invest in.
    So the question really is, that if you assume Common Core 
standards and the assessment process that is being developed 
again with competing forms of the groups of States that are 
working on this, then at that point you really then have the 
ability to talk about the information you would receive out of 
the assessments, both for teacher evaluation, for student 
evaluation and for school evaluation. And then comes the 
question of multiple measures. You cited a series of multiple 
measures that look into schools, really most of which were 
related to academic performance, but because students are 
taking AP courses or they are taking national courses or ACT, 
what have you, on graduation. But every time you start this 
discussion, because people want to come in and talk about the 
football team, about the spirit of the school, is it clean, has 
it been painted, all important, but I don't think it tells you 
what you want to know about whether or not you are getting a 
return on investment.
    I started a discussion on No Child Left Behind by saying 
that in my district I didn't believe that a huge number of my 
parents were getting any return on their investment because 
their kids were hidden in this process and that is history.
    So I would just like you to address this question because 
the extent to which we have confidence in the Common Core 
standards that the governors have developed, a lot of 
flexibility, a lot of things flow from that. And I would just 
like to know how you think that plays itself out across 
students, schools and teachers.
    Ms. Skandera, you get to go first.
    Ms. Skandera. Mr. Chairman, members of the committee, I do 
think the fundamental question is are we measuring inputs or 
outputs. When it comes to our expectations for our kids in the 
State of New Mexico, and I believe when we look across this 
Nation, we want to ask the question are we seeing improved 
student achievement. So when it comes to the query around 
multiple measures I think the fundamental question is are the 
things that we are using to measure, are they measuring student 
achievement and are they linked to improved student achievement 
via research. And so at the end of the day I also have heard a 
lot of conversation even within our State around those inputs, 
extracurricular activities, et cetera. And I would say we need 
to hold a high bar when it comes to improved student 
achievement and our expectations around accountability.
    Ms. Hawley. Looking from the school level, what we need to 
look at in terms of multiple assessments is more ongoing 
assessments so that we can monitor the progress of the student, 
and it needs to come from the local level; that is, specific to 
the needs of that local school system, and need to be a variety 
of assessments that are both formative and summative so that we 
can look at total progress, not just one snapshot of a child, 
which I think we all--it sounds like we agree to that. But the 
benchmarks looking at ongoing progress so that we can then 
individualize where we need to really build up students and 
their achievement as we go along as opposed to waiting until 
that standardized test and then getting the results a couple of 
months later and then saying, oh, you know, we could have, so 
this way we can be more prescriptive and diagnostic as we move 
along to truly help build student achievement.
    Mr. Carvalho. Mr. Chairman, Mr. Miller, members of the 
committee, I think the reasonable approach to district 
accountability, school accountability is one that brings about 
the hybrid model that takes into account both specific 
proficiency targets but values and credits, growth and learning 
gains towards those goals. That is what the Florida system is 
based on. There is incredible credit given to, for example, the 
lowest quartile of children, which are in many ways 
representative of the subgroups, the aggregates of the 
subgroups envisioned under No Child Left Behind.
    A model that recognizes both where we need to go, where we 
are and the growth towards that target is a reasonable model. 
It does not discourage communities; it does not confuse 
communities and gives credit for good teaching.
    I will give you an example. After the devastating 
earthquake that took place in Port au Prince in Haiti a couple 
of years ago. We in Miami-Dade received close to 2,000 
children. We received children who were 15, 16 years of age 
that were functionally illiterate in both languages, in Haitian 
Creole and English. Actually didn't speak any English and they 
couldn't write their own language. Yet by age they were placed 
in a high school.
    The question here is, is there enough time afforded to them 
to reach that proficiency target within a reasonable timeline 
without disparaging the effort that the teachers and the 
leaders in the schools that they led put into that effort.
    So I think that growth from that perspective is something 
that needs to be acknowledged. I will agree also with the 
premise that has been already explained, one that in fact 
values student outcomes above adult inputs. The day of just 
simply hugging and loving a kid and hoping that he or she will 
learn as a function of that is not sufficient, and if you 
cannot measure it I am really not certain what I will be able 
to tell the parent or a future employer as far as the skill set 
that this child will provide.
    This is no longer a skill set conversation, it is a will 
set. We know exactly what it will take to teach America's 
children. Whether or not we have the resolve to do it within 
the timeline that is required of us so we do not lose our 
strategic position economically speaking in the world, that is 
the big question to be answered. But I think a hybrid model 
that takes into account, again, proficiency targets as goals, 
but recognizes and rewards, gives credit for the learning gains 
made in a process is one idea whose time has come.
    Ms. Sichel. Thank you for the opportunity. There is no 
question that we need a vast accountability model. And the 
accountability model in Pennsylvania in the case of the 
Abington School District is extremely successful. It uses a 
system called e-metrics which incorporates all the AYP 
information, but most importantly there is a second system 
called the Pennsylvania Value Added System. And in this system 
you have every student's data. You can look at their growth 
month to month, year to year and over time. By doing this we 
can see if an individual child, a classroom, an entire third 
grade or an entire school is making growth.
    To this data we can add what is called the Pennsylvania 
Getting Results Plan. That plan was developed for schools that 
did not meet adequate yearly progress. In the Abington School 
District we require, specifically me, every single principal 
with their teachers to complete a Getting Results Plan 
regardless of their status because all of our schools have made 
AYP. In that plan we look at the root causes, we look at the 
strengths in each classroom, we look at the needs. That 
includes those children that are advanced, whether they need to 
continue in their advancement, as well as those that are basic 
and below basic, and from there we create individual plans that 
are the basis for our remediation and our intervention.
    This has to be the basis to any school's plan. And frankly 
the days of focusing on football are over.
    Chairman Kline. Thank you. Mr. Petri, you are recognized 
for 5 minutes.
    Mr. Petri. Thank you all. Thank you for your commitment to 
education and for your testimony here today. I just want to ask 
your reaction to--in our State we, the State, has not gotten 
permission from the Federal Department of Education, but it 
still finds it very valuable and uses as part of its 
assessment, and we were doing every 3-year assessment of kids 
long before No Child Left Behind, something called adaptive 
testing. It is computer based. If a student isn't answering the 
questions it asks simpler and simpler questions. Or someone can 
even assist the student in operating the computer. So the full 
range of students can be--and if a kid is acing it, it asks 
higher and higher. So it assesses above and below grade and is 
an instant feedback practically. And so it is a good tool for 
the administrators and for the teacher and for the parents. And 
you can then have a growth model built on that. It has not been 
allowed, although they are starting to soften on it because 
they have been arguing it in Washington, students should only 
be asked to that grade level, which I don't quite understand, 
and that all kids should take the same test. And it is the same 
test, but questions may be asked differently as the child goes 
forward. So they say that is not the same test for everyone, 
which it is the same computer program.
    Anyway, could you react to that at all? Is that the type of 
thing that we should be using or that you are already using in 
Pennsylvania or in Florida or planning to use in New Mexico or 
in our area?
    Ms. Sichel. I would be happy to address that. One of our 
intervention approaches that we use when we analyze our data is 
called the Compass Learning System, and we have a second one 
called Study Island. They are both computer based, they have an 
adaptive system. The student can spend some time on these 
systems, both in the school and at home if they have access. 
And we also have created access in our public libraries. They 
go in at their grade level because we want everyone to be 
dealing at the rigorous grade level. However, if the student 
does not reach proficiency on some of the assessment items in 
there, it brings them back, it reteaches. And for the younger 
kids it has all kinds of built-in rewards with whistles and 
bells and scorekeeping.
    I can give you a very specific example of a child who is 
not proficient on the 11th grade PSSA. When we do that, when a 
child is not proficient they are required to take remedial 
classes. This student was very interested in taking an advanced 
level science class. He committed to his principal that he 
would get on at that time the Study Island program a minimum of 
20 minutes a day, and that by the time the next Pennsylvania 
system of assessing would come around he would be proficient. 
That student did it, we logged his time, he took the test in 
December. He not only moved from basic to proficient, he ended 
up being advanced.
    So with motivated students this is a good system, but it 
has to be monitored by staff and we have to encourage children 
to use it.
    Thank you.
    Ms. Skandera. Mr. Chairman, members of the committee, if I 
might just add, I do think you will see across States the 
sophistication of assessments is every year we are seeing 
greater and greater degrees of sophistication so we are able to 
measure at different points in time growth, et cetera. And I 
would think that is absolutely taking place. But I think the 
fundamental key in the assessment system is that we continue to 
have high expectations so when it comes to the Federal 
Government and its role with States that we still hold a high 
bar and that we have an expectation of an outcome.
    I recognize that with No Child Left Behind the 2014 
deadline is something that we will be passing soon. But I also 
think to lose sight of the expectation that all our students 
can learn that we should be closing the achievement gap and 
that even on a growth trajectory we should expect proficiency 
as an important part of the process.
    Mr. Petri. My time is getting short. I just want to switch 
really briefly to one other area, and that is when we talk 
about accountability. This is the Federal Government so it 
tends to drive accountability toward some sort of Federal 
standard. What are the strategies that you are using for 
accountability to parents, because obviously it helps a lot if 
they partner in the process, if they value the process, if they 
support their children, if there is a lot of feedback and 
communication back and forth? I know in districts now with 
everyone getting more or less on line teachers are able to have 
websites and posts and basically communicate--Johnny didn't, or 
Juan or whatever, didn't bring his homework to school today, 
was there a problem at home or whatever, rather than waiting 
until the test, and then why did the kid fail. Is this an 
important part of what you are doing, Mr. Carvalho?
    Chairman Kline. If I may interrupt, I am sorry. I see the 
heads nodding. I think that was an answer. And the gentleman's 
time is expired. The extra time that I give the ranking member 
doesn't apply to the rest of you.
    Mr. Kildee, you are recognized.
    Mr. Kildee. Thank you, Mr. Chairman. I have been teaching 
since 1954. I have always believed that education is a local 
function, a State responsibility, and finally a Federal 
concern.
    Is the Federal Government taking on a larger role than we 
should? What are we doing well and what are we doing poorly? 
[Question partially inaudible due to microphone malfunction.]
    Mr. Carvalho. I think there has got to be a balance and 
respect for, number one, the local and State responsibility for 
a high-performing educational system that benefits all students 
at all levels. But, also, that balance needs to take into 
account what I believe is an important aspect of student 
accountability, which is districts' ability, educated parents 
ability, business leaders, consumers of public education 
products' ability to gauge their own effectiveness compared to 
49 other States in the country and, perhaps more importantly, 
their own States in America's competitiveness, vis-a-vis the 
rest of the world. And without having some degree of 
comparative ability to determine where we are among the Nation 
and where our Nation as a whole is vis-a-vis their competitors, 
whether it is western Europe, the emerging nations of Asia, 
central South America, then I think we are shortchanging 
ourselves and our ability to make rapid improvements with this 
stimulus and catalyst that is this concern for economic 
development and skill set building on the part of our 
workforce.
    So, for me, this balance between the rights of States and 
districts that own the responsibility of providing a high-
quality educational program, juxtaposed with this concern of 
mine to know where my children, from pre-K, kindergarten all 
the way through the adult system, are vis-a-vis 49 other 
States. But I am also concerned with our own performance 
compared to children in India, in Singapore, in Brazil, and in 
Finland; and without some degree of measure, some degree of 
accountability that provides an umbrella for that comparison it 
becomes incredibly difficult.
    Mr. Kildee. Ms. Hawley?
    Ms. Hawley. Yes, I do agree there needs to be a balance and 
there needs to be some Federal role in providing support and 
guidelines and, to some extent, standards, but there should be 
some ability at the local level--local and State level to set 
up the specifics of the accountability system. Because each 
area of the country is very different, and we need to be able 
to understand our local system as well as what is important in 
our State and make those decisions specific to those particular 
needs.
    I had another thought----
    Mr. Kildee. [Question inaudible due to microphone 
malfunction.]
    Chairman Kline. Unfortunately, the gentleman's time has 
expired. Too bad, because I would like to hear the answer to 
that.
    Dr. Roe, you are recognized.
    Mr. Roe. Mr. Chairman, thank you all. So is all education--
[Question inaudible due to microphone malfunction.]
    Chairman Kline. Excuse me. Dr. Roe, I don't think your mic 
is working. You may just have to speak up.
    Mr. Roe. You mean my outside voice?
    Chairman Kline. There you go. Thank you. And staff is going 
to work on this problem. Thank you.
    Mr. Roe. [Question partially inaudible due to microphone 
malfunction.] I came here, the most frustrating group of people 
were doctors. Now it is teachers. You all four say I absolutely 
believe the most important person in the education is teacher, 
great quality teacher, a great [Inaudible]. We saw a local 
school, I live in Tennessee, east Tennessee, mountain 
Appalachia, and in one of our schools we changed one person--
the principal--and it became one of the top 10 performing 
schools in our State. I think you see that.
    Question number one, how do we attract the best and 
brightest in the classroom and stay there, because if you look 
at the data as we all have,our young teachers, frustrated and 
not next [Inaudible] elementary school 90 percent. And they 
have a higher approval rating.
    Let me stop at that question and get that answered.
    Ms. Sichel. I would be happy to address that.
    What is important to address, the best and the brightest, 
is to make sure that teachers, principals, as well as members 
of the superintendent's cabinet and superintendent has input 
into what is going to happen in each and every one of those 
schools and for the responsibility of the children. There has 
got to be plans that are collaboratively based with parents 
involved, and people have to feel that there is a return in 
their investment to come to school every day.
    So, first, there is the intrinsic desire of teachers to 
want to be good teachers.
    Secondly, let's get realistic. Teachers have to be paid at 
a rate to which they can afford to live and work well. We have 
made some progress in that area, but in the areas where you 
can't retain staff you have to look at what is going on in 
terms of the salary levels.
    Fortunately, I come from a suburban Philadelphia school 
district that has a salary plan that is moderate compared to 
the county. That moderate ability allows us to attract terrific 
teachers; and because they have input into their future with 
goal setting and the materials that they need to get the job 
done, they don't leave.
    Mr. Roe. And I agree with you on that. We were able to, as 
a city where I live, to pay more than the county teachers did, 
and I think we had a chance to do that.
    Let me give you a brief example of why I think the AYP is 
flawed, and you can step right in.
    One of my good friends and former patients is a teacher in 
an elementary school. I go every year and read in her second 
grade class. We did that this year, and I was talking about 
some of her students. She said, this young boy will be back 
with me next year. I said, why is he going to come back? Is he 
not able to read? No, he has missed 60 days of school this 
year. Why did he miss 60 days of school? Because his mother 
wouldn't get up and get him out of bed to get him to the corner 
to get to the bus to get the school.
    So now my friend, who is an excellent teacher, because he 
is not making adequate yearly progress, is a bad teacher.
    That is a flawed system. How do we do something about that? 
I heard all four of you say the current system is flawed, and I 
totally agree with that.
    Ms. Skandera. Mr. Chairman, if I might, I think the 
distinction I would say is a shift from a focus on 
credentialing and years of experience when we look at the 
effectiveness of teachers to effectiveness linked to improved 
student achievements. And I think you look across the Nation 
and you will see States are consistently looking to create that 
link and say we have an expectation; and when we meet that 
expectation, we want to reward, honor our teachers and our 
school leaders in a meaningful way when it comes to pay and 
those things that are most important to our teachers.
    But shifting the conversation from how many years have I 
been teaching and what degree do I have to what is happening 
for my students today and are they learning is a fundamental 
shift that I think needs to take place if we want to see the 
honor that you are talking about. I do think the Federal role 
in that is to acknowledge that important shift that States are 
making and give them the flexibility to emphasize those things 
that matter most when it comes to our kids.
    Mr. Roe. And how do you answer this question? I told you I 
have been talking to a lot of teachers. They have a tremendous 
frustration in our State of Tennessee about we are just 
teaching to the test. And after the achievement tests are over, 
the kids are staring out the door because they know that they 
have had the achievement. How do you answer that? Because they 
are frustrated by, hey, I am just teaching to a test.
    Mr. Carvalho. Mr. Chairman, if I may address that and to go 
back to your initial question, because I think one thing that 
is lost in this argument or this question about what would it 
take to get the right people in front of our kids, we usually 
reserve that conversation for superintendents, for principals, 
and for teachers themselves. We completely discount this issue 
of teacher preparation formation.
    Somehow we are dependent on the output of colleges and 
universities, colleges of education. Let me submit to you that 
I agree with my colleague that we value extremely individuals 
with Master's Degrees and EdDs, and we focus little attention 
on student outcomes and the ability of these folks to deliver 
on student outcomes.
    So tough questions must be asked about the Nation's and 
States' willingness to push this envelope of teacher 
preparation formation, what it takes to become a teacher. If 
you look at the highest performing nation in the world right 
now, Finland, Finland recruits from the very top 10 percent of 
their graduates to be eligible to teach kids. And, yes, it was, 
as was said previously, in the compensation system for teachers 
it is not that divergent from that of an attorney or doctor. 
Let the market forces decide that.
    But I do think that once you have a strong teacher 
preparation formation, then you need to have a system that 
incentivizes great performance and particularly incentivizes 
teachers to go into the toughest, to teach schools perhaps with 
up-front bonuses, if those recognize already performance 
demonstrated elsewhere. And when there is recognition specific 
to student outcomes that results, as I said, in incentives and 
bonuses for great performance for teachers. I believe that is 
how you move the needle.
    Chairman Kline. Thank you. The gentleman's time has 
expired.
    Mr. Hinojosa.
    Mr. Hinojosa. Thank you, Chairman Kline and Ranking Member 
Miller.
    While No Child Left Behind has a flawed accountability 
system that needs to be improved, the Federal Government, in my 
opinion, must ensure that States and local school systems work 
to prepare all students to be college and career ready.
    My first question is addressed to Superintendent Alberto 
Carvalho.
    I have read that you have a very impressive track record 
making significant strides in improving student achievement and 
graduation rates in your school district. There is a bill, the 
Graduation Promise Act, H.R. 778, which I reintroduced in this 
112th Congress. Its supports a State-led system for identifying 
the lowest-performing high schools and implementing 
interventions based on their unique challenges.
    In your opinion, how do we create an accountability and 
school improvement system that makes sense, one that leads to 
effective school reform, especially for our Nation's lowest-
performing secondary schools?
    Mr. Carvalho. To the chair, thank you for the question, 
sir.
    I think to a certain extent some of those systems in some 
States already exist. Certainly in Florida I believe that 
Florida's accountability system already puts an adequate amount 
of pressure on districts to ensure that high schools move 
swiftly from potential dropout factories in America to beacons 
of hope for communities that produce a highly qualified 
workforce that is ready to compete.
    And the way to do that, number one, is by addressing not 
just academic adequacies. It is by simultaneously addressing 
workforce, workplace adequacies alongside personal and civic 
adequacies. And those last two, for whatever reason, have in 
many instances departed our public school systems. They are 
important, personal, civic, workplace, and academic adequacies 
for all kids.
    Second, the way you reach that state of high performing 
high schools is by not compromising in any way on teacher and 
leader quality. And this addresses the comments of the 
representative a little while ago.
    You need to recruit the very best principal, the leader who 
is empowered with making decisions that allow him to select the 
very best teachers that have the right balance of skill and 
will set. Meaning they understand instructional strategy, they 
understand data analysis and use data to drive instruction and 
then have the will for the job. They understand the communities 
they serve.
    Three, they have the backbone and the support of a system 
that understands the predicaments of schools in a Miami-Dade. 
DATA/Com serves that. I am directly involved in supporting high 
school performance and principals.
    Let me close by saying this, and I think this addresses 
part of your question. We have been dealing with this issue and 
I think it is prevalent in every one of your comments and 
certainly our own: rights of States and local systems versus 
the Federal Government. Here is the way I see it.
    States build the road of student achievement and 
accountability. It is up to the Federal Government to install 
the guardrail to make sure nobody falls off. The road is 
ultimately the responsibility of our States. And I think this 
perfect balance between both accountability systems will lead 
to a more educated workforce at some point in the near future.
    Mr. Hinojosa. Thank you for your response. I am very 
interested in listening to how your district addressed the 
needs of the English language learners and students with 
disabilities and minority students.
    Mr. Carvalho. To the chair, that is the beauty of public 
education is that all means all. Under the eyes of God, we have 
the responsibility to teach all kids, not being selective on 
the basis of their own disability or their ability to speak the 
language but being absolutely concerned with the full potential 
they have before them.
    So in our district we have a history of developing the very 
best in the Nation, the ability to teach children who either 
immigrate into this country or who are born to first-generation 
parents. Not using poverty or language as excuses for their 
achievement deficit but using what research provides is the 
best way of catching them up. Putting the very best teachers in 
front of them. In some cases, providing them with double dosing 
of language and math; and, yes, in some instances, using the 
very best strategies to pick them up where they are and taking 
them to where they need to be. Offering them before and after 
school tutorial programs. Enforcing almost a mandatory Saturday 
school program called the Success Academy to bring these 
students into school using, in many instances, Federal 
resources such as Title I and Title III dollars.
    I think those are just some of the strategies we have 
employed to, in just a few years, dramatically increase 
graduation rates.
    I have one high school, Edison Senior High School, it was 
an F just a few years ago. When I became superintendent, we had 
nine schools and the threat of the State of being shut down for 
performance. Every one of those schools was high poverty and 
high minority demographic composition. We didn't accept poverty 
or disability or a minority composition as excuses. We 
leveraged great teachers, in some cases moving out, replacing 
80 percent of the teachers. Yes, in many cases, in this case, 
firing all nine principals and replacing them with the most 
effective people I could find, regardless of whether or not 
they looked like the communities they served. Because it is 
time to appoint the very best people to the most challenging 
conditions. And that has made a world difference.
    Mr. Hinojosa. Thank you for your response.
    With that, I yield back.
    Chairman Kline. I thank the gentleman.
    Dr. Heck, you are recognized for 5 minutes.
    Mr. Heck. Thank you, Mr. Chairman; and thank you all for 
the truly outstanding testimony that you provided here this 
morning.
    I represent the Clark County school district in southern 
Nevada, the fifth-largest school district in the country, over 
300,000 students, large homeless, ESL, transient student 
population, with urban, suburban, and rural schools spread 
across 8,000 square miles. So to say that we have some 
interesting challenges is really an understatement.
    In preparing for this committee meeting, I met with my K-12 
advisory group while we were back home in August, and so the 
questions I have today are issues that they have raised.
    First, we heard a lot the of talk about the AYP process and 
how it has failed schools. I heard from two teachers. One, Ms. 
Donadio, who is the principal at the Foothills High School, 
talked about how their school failed to make AYP because five 
students out of the entire student body failed to show 
proficiency in math.
    Another teacher, Mr. Hale, who is a teacher at one of our 
magnet programs, the Aviation Academy at Rancho High School, 
talked about how 36 of his students scored perfect scores on 
calculus but yet their school was labeled as needs improvement. 
Their issue revolved about the end count. And the fact that 
while we try to look for new accountability measures, while 
giving flexibility to the States, it seems that subgroup 
numbers and how people are subgrouped differ from State to 
State.
    So how do we achieve consistency in the end count while 
allowing flexibility across States.
    Ms. Sichel. I would be happy to address that, Chairman. I 
think what is important here is that we instead of focusing on 
just AYP, we focus on growth. If you focus on growth of each 
child and make sure that each child continues to improve, you 
won't have five students keeping you from making AYP or the 36 
children who had excellent scores still having that school 
being on an AYP list. The key is that if schools make growth 
and if children make growth, there should be targets that show 
that that demonstrated growth makes a difference and that is 
what creates a school that is successful or not. Lack of growth 
should be what is it is all about, not one single target one 
point in time.
    Ms. Skandera. Mr. Chairman, I couldn't agree with my 
colleague more. I would just emphasize two things though. We 
talked a lot about what is wrong with No Child Left Behind and 
the things that need to be fixed. There are two things that I 
think are really important that we don't lose--maybe more than 
two, but I will highlight two.
    One is that every child's expectation of growth, one of 
things No Child Left Behind does is look at subgroups. We need 
to ensure that we continue to hold ourselves accountable for 
every child and their progress and growth.
    Secondly, the emphasis on reading, a minute ago we talked a 
little bit about the importance of graduation rates, et cetera. 
Annie Casey Foundation just put out a study this year that said 
third grade reading, if a student can read at third grade they 
are four times more likely to graduate. I think it is important 
we don't lose sight of the core, the basics that No Child Left 
Behind holds us accountable for.
    Mr. Heck. The other issued they raised had to do with SES 
and the Title I set-aside. And they felt that it really 
impacted few students for the amount of money expended and 
there was a lack of vendor accountability. I would wonder if 
you share that opinion of SES, and if so, what types of 
measures can we look at putting in place to make sure that 
there is value added to the program?
    Mr. Carvalho. I will take that, Mr. Chairman, at the 
expense of upsetting the lobbying core attached to SES 
providers. Look, Miami Dade is--I apologize, I am a plain 
speaking person. Miami-Dade is the fourth largest in the 
Nation, Clark County is fifth largest, and I have had terrific 
conversations with your superintendent, who is sending a team 
of individuals to our district to look at some of the 
improvements we have made.
    By the way, keep trying to keep up to number 4. At one 
point I thought you would grow into number 4 in the Nation.
    The interesting thing about SES is, number one, if done 
right with the appropriate individuals, providing tutorial 
services, bring value added based on best in class teaching 
strategies, it makes a great deal of sense. But there is a set-
aside that in Miami-Dade results in $26 million invested or 
provided with very little say on my part, very little oversight 
or accountability attached to 400 different providers, 400 
different providers. In the State of Florida, the entire State 
of Florida, there are 600 approved providers, 400 of them are 
doing business in Miami-Dade with very little accountability 
and a great deal of money.
    Those are two ingredients that spell out disaster. I can 
tell you that we are unfortunately stuck with third party 
entities, and consume a great deal of time investigating 
fraudulent activity. And if you look at the research because 
there is little accountability and very, very little uniform 
accountability for performance attached to the value added 
results at the intervention of these providers, it is very hard 
for us to know what is going on and incredibly difficult for us 
to opine to parents as to what is best for their kids.
    So I will give you a couple of ideas. Number one, we have 
been able to, get through recent State legislation that we 
advocated for in Tallahassee, the adoption of a single 
instrument for assessment, establish a pre and post test for 
SES providers, so that every single kid, regardless of who 
tutors them, has to take the pre and post assessment. So at 
least there is uniformity of results that parents then can use 
as wise consumers of the products.
    Two, I do think that school systems and our system via 
waiver is a provider itself, but school systems need to be 
empowered with more ability to utilize those dollars in a more 
strategic way that compliments thecomplements good practices 
their system is already employing to begin with.
    Mr. Heck. I thank you. Mr. Chairman, I yield back.
    Chairman Kline. I thank the gentleman. Ms. McCarthy.
    Mrs. McCarthy. Thank you, Mr. Chairman. I want to thank the 
witnesses. This has been terrific testimony from all of you. 
And I happen to agree with you that every child can learn to 
the best of their ability if they have the tools also.
    And to Mr. Carvalho, one of the things that I have felt, 
New York State right now is in the process of changing how our 
teaching colleges are teaching their teachers to be able to 
reform the school. This has been an ongoing issue since I first 
came onto this committee 15 years ago. When I graduated from 
nursing school, we put on our white uniform and we had to know 
everything when we got on that floor, and I think that is from 
the training that we had. And that has to be into our teaching 
colleges mainly. In my opinion, today the world is a different 
place, and we have to send more experienced teachers, 
especially into the early grades.
    One of the things I wanted to ask you, no one talked about, 
and I think this is one of the biggest problems we have seen 
when I go into my schools, the kids start to do really, really 
well in the lower grades, then we get to the middle school and 
we start to see a great deal of loss of educating and the kids 
start to drop out.
    So what have you been able to do to be able to look at that 
and how have you been able to hopefully prevent it?
    When you talk about flexibility, I would also like to see a 
little more examples. Everyone throws that word out, 
flexibility, flexibility. We understand that schools and the 
States need some flexibility, but what you are exactly looking 
for as we go forward?
    And again, I think--you have talked about a lot, especially 
for the superintendents on what they have been able to do. The 
schools are the front line of student learning, but they cannot 
meet high expectations without support and involvement from 
their districts and the States. As both of you as district 
superintendents can you talk about the importance of involving 
districts, including things that districts can do to help 
schools in raising achievement and closing gaps? And some of 
you talked about that already. What are the consequences 
accountability measures should in your opinion exists for 
districts that fail to raise achievements or close gaps. We 
can't just keep closing schools. We have to have answers for 
those students.
    Mr. Carvalho. Mr. Chairman, well at the risk of maybe 
sounding a bit disagreeable, I do think that sometimes closing 
a school is legitimate. I moved to close about five schools 
this year because I thought they were dropout factories. Some 
of them were alternative education centers, where in my opinion 
the kids got a one-way ticket.
    Mrs. McCarthy. When you say you closed the school, did you 
reopen it with a whole new fresh--I am not talking the building 
itself.
    Mr. Carvalho. I understand. In some cases I did and some 
cases I didn't. In some cases I actually closed the school and 
I made the school available for an independent board to come in 
and provide a charter option. In other instances I closed the 
school and created a center for middle schools to catch up, 
kids who were over aged, and in others the building sits empty. 
So I think there's room for everything.
    Let me go back to your initial question because I think it 
is fundamentally important. If we want to address the issue of 
dropouts and increased graduation rates across America, we make 
a more robust investment in early childhood education.
    What you described as this negative progression from high 
proficiency, high result at the elementary levels, and then see 
a decrease going to middle school and then a significant 
decrease going to senior high school, I believe in all the 
research, all of the peer-reviewed research, not just the think 
tank and foundation driven research, indicates that it is 
rooted on early childhood education.
    Sometimes you pass the tipping point and don't recognize it 
until the child is in middle school. So this goes back to the 
point of, and there is a second tactic. I do think we prepare 
better, across the board better elementary school teachers in 
many instances than we do core subject area, secondary 
teachers.
    And this goes to the issue I addressed earlier, the issue 
of teacher preparation formation. In many States to teach sixth 
grade math and science you need only a Bachelor's degree with 
one single course during your 4 years of college in math or 
science. That does not give you the skill set necessary to be 
able to teach effectively math or science.
    So it is a combination of early strategic investment in 
early childhood education, a clear idea how to discern the 
data, analyze the data, make instructional decisions based on 
the data that provides for differentiated instruction, reading 
coaches, interventionists early on, in addition to a serious 
conversation about teacher preparation formation, particularly 
for the secondary course levels.
    Chairman Kline. I am sorry, the gentlelady's time has 
expired.
    Mr. Thompson, you are recognized.
    Mr. Thompson. Thank you, Chairman, and thanks to the panel 
for being here and for your expertise and your leadership in 
your respective areas.
    The administration's ESEA blueprint and the Common Core 
standards intend all students to be college and career ready. 
How do you believe Congress should define career readiness? And 
would this require more than evaluation of math and science 
skills, but also looking at a variety of workplace skills?
    Ms. Sichel. Thank you, Mr. Chairman.
    In terms of college and career ready, it is imperative that 
every child graduate from high schools across this country 
being prepared to go on to college and/or taking a career. At 
this point most of the careers require the kinds of skill bases 
that freshmen and sophomores should be able to accomplish in 
school. So every student has to be proficient in high level 
mathematics, to be able to deal with upper level science, to be 
able to do the problem solving and analytical thinking that 
relates to good reading and writing.
    Think about what goes on when your car is repaired. It is 
no longer the days of just changing the oil. They need to know 
how to deal with computer programs, they need to know how to do 
diagnostic and intervention. These are higher level thinking 
skills. So it is imperative that we raise the bar for everyone.
    You have an educational columnist here in Washington, Jay 
Mathews from the Washington Post. He talks about the fact that 
for students to be successful today every child needs to have 
the opportunity to be involved in rigorous, relevant high level 
academic classes. So it is important that we open the doors for 
everyone to be able to attain those goals.
    Mr. Carvalho. To the chairman, I would simply add to that. 
My colleagues spoke to the issue of academic adequacies 
focusing on reading, math, and science proficiencies. And those 
are important I believe every single child graduating high 
school needs to demonstrate proficiency in those.
    But in addition to that, there is a value to putting some 
focus on workplace adequacies, those skills, the set of skills 
that future employers will be looking for. We have achieved 
that by expanding aggressively parental choices in senior high 
schools, offering thematic instruction through career 
academies, through thematic instruction providing within the 
public school system a wider variety of choice for parents. 
About 41 percent of children in Miami are in nontraditional 
programs. And in our career academy, specifically in high 
school it is biomedicine, robotics, engineering, STEM driven 
academies. Children both learn and develop proficiency in the 
core subject areas of reading, math, science and writing. But 
they also begin to master industry specific adequacies that I 
believe are important in developing their future workplace 
proficiency and adequacy.
    Mr. Miller. Would the gentleman yield, Mr. Thompson?
    Mr. Thompson. Sure.
    Mr. Miller. I don't want his question to slip away. He was 
asking whether or not this is the responsibility of the Federal 
Government or the States to set these high standards. I think 
that is an important distinction for the discussion in this 
committee. Most of you testified about support for the Common 
Core, which was not--that is not our work product. If you could 
just tell us what you think there.
    Mr. Thompson. Just reclaiming my time, specifically and I 
appreciate your responses as co-chair of the Career and 
Technical Education Caucus, congratulations on the program that 
you are doing. The question was specifically should Congress 
define career readiness or how should Congress define career 
readiness?
    Ms. Skandera. Mr. Chair, no one wants to touch that one. I 
would simply say that all States should be required to 
implement, but it should be a State decision. The expectations 
of high standards and rigors should be established and expected 
of all but States should have the opportunity to choose their 
standards, measured to a high bar. And to that end what it 
comes to is, is it an either/or or both/and. I think it is a 
both/and when it comes to reading and math because, as my 
colleagues stated, those are our fundamentals. That is a given 
expectation. Those are the skills that we want to build on for 
our workforce readiness.
    Mr. Thompson. I think a comment, one of the flaws I see of 
No Child Left Behind, it appears to have been built under the 
premise that every child should go on to a 4-year college. That 
is just not true. In fact, it is not fair and fails to 
recognize there are many different pathways to success.
    Ms. Skandera. Mr. Chair, just a quick follow-up on that. I 
do believe when we talk about reauthorization and the 
opportunity to acknowledge differentiated accountability, I 
will tell you as we look at our school grading in the State of 
New Mexico we are looking at nationally recognized vocational 
education and acknowledging that as it links to graduation as 
an important component as well.
    Mr. Carvalho. Mr. Chairman, that is why in the State of 
Florida there is credit given to industry certification 
alongside graduation rates and proficiency rates, because I 
think America has done a great job at convincing every kid that 
preparation for college is critical and I believe in that. I 
think we ought to prepare every kid to succeed in college, but 
not at the expense of demonizing the value of career technical 
education.
    There is a reason why apprenticeship programs in Germany 
are high paying and high demand. And America has allowed that 
to go to waste shamefully. And to a certain extent I believe we 
have lied to kids.
    I go into my senior high schools, I ask kids questions, 
what are you going to do after the last day of high school, and 
a percentage of them tell me that they will go to college to be 
a doctor and an attorney, and the other percentage tell me they 
are going to play ball. And between those two extreme realities 
there is a chasm, and we need to readdress this issue of career 
technical education in our Nation if we are to ensure economic 
viability.
    Chairman Kline. The gentleman's time has expired.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Carvalho, you have 
talked about the importance of having highly qualified math 
teachers. Why do you hire math teachers who are not qualified 
in math when there is--instead of all of those who have applied 
that majored in math?
    Mr. Carvalho. Mr. Chairman, if I understand the question 
correctly, I try not to if they do not meet the qualifications, 
but understand in most of our States, including Florida, the 
State certifies teachers. So there is law that basically 
declares the certification for a teacher. Certainly----
    Mr. Scott. Do you have highly qualified math teachers 
applying for the jobs that you are ignoring?
    Mr. Carvalho. Therein lies the issue. The designation of 
highly qualified in my opinion does not necessarily reflect 
high quality for teaching in a subject area. It is pursuant to 
a State statute that declares those individuals highly 
qualified if they met the criteria required for such.
    Mr. Scott. Is the problem that we need to instruct the 
superintendents to hire people who are qualified and taken the 
math courses instead of the ones that have not taken the math 
courses? It would seem to me if you have people in line for the 
jobs you would have hired them.
    Mr. Carvalho. Through--Mr. Chairman, I agree with you. 
There is an issue of scarcity of talent in a highly competitive 
environment. So the idea that there are a lot of individuals 
out there, and I think this is a concern of the Nation, ready 
to teach math--particularly math and science at the higher 
levels, is very scarce. And certainly it is our responsibility 
to go through the resumes of these individuals in very 
aggressive interviews to determine that notwithstanding those 
who meet and fulfill the State certification requirements we 
are looking for their effectiveness.
    Mr. Scott. One of the challenges we have is when we just 
mandate that you hire people who have taken a lot of math 
courses, that is kind of meaningless if none have applied. I 
think you mentioned salaries. If we are not paying enough, it 
is not going to get people who have taken a lot of courses.
    One of the things that some of us are trying to do is 
improve the community that the young people are in to make it 
more conducive to learning, to make sure the young people have 
early childhood education, after school programs, mentors so 
that when they get to school they have the support of the 
community.
    Can you comment on the promise neighborhoods investments 
and how they would help you do your job?
    Mr. Carvalho. Mr. Chairman, I will start, our best answer 
to that was development of the Parent Academy. It is an academy 
for parents based on three specific pillars: Number one, a host 
of courses, about 200 different courses and a course core 
directory offered in 80 plus locations throughout the district, 
not necessarily in schools. We offer these courses wherever 
parents are, specifically targeting high poverty areas and high 
minority areas.
    The three pillars of Parent Academy are as follows: Number 
one, helping parents negotiate and navigate the school system 
on behalf of their kids. Said in a different way is inspiring 
parents to demand more of their school systems, know what their 
options are, what their rights are, and availing themselves of 
them.
    Second pillar of the Parent Academy is helping parents 
negotiate their own personal development from an academic 
perspective, adult literacy skills, helping them become more 
literate so they can become a second teacher, an echo to the 
teaching that takes place in the school at home.
    And the third pillar is helping parents negotiate civic 
life in America. So this issue of understanding of the 
Constitution and understanding of the laws of the State of 
Florida, so they can also provide an echo for their kids. It 
has been one of the most remarkable and research documented 
investment, and I am proud to say this does not invoke 
taxpayers dollars. I went to the business community with this 
proposition and the business community has invested in this 
Parent Academy. So questions on financial literacy are provided 
by Citibank, courses on workforce development specific to key 
industries are provided by Braman Automotive Group and the 
like.
    Mr. Scott. Thank you. One of the challenges that we have is 
what to do when a school is failing. We have a cookie cutter, 
one-size-fits-all response; that is, you get tutorial services 
for everybody, everybody can go sneak out and try to get to 
another school choice. But if it is only one subgroup that has 
failed, that caused a failure, it seems it me that the response 
ought to be addressed to the cause.
    Can you comment on how we should respond to a subgroup 
failure?
    Ms. Skandera. Mr. Chairman, members of the committee, I 
would say that the choice and SES provisions in No Child Left 
Behind today are excellent, but we need additional proven 
strategies and options when a school is struggling. To your 
point about one subgroup, I do think if we----
    Mr. Scott. Should the resources be addressed to the 
subgroup that failed?
    Ms. Skandera. Mr. Chairman and members of the committee, 
yes. And I believe as we capture individual growth, which is 
something we talked quite a bit about, we will begin to be able 
to target our resources to those most in need. We see that even 
if we differentiate accountability from a school standpoint, 
right now that is difficult to do because we have this pass-
fail system. As we begin to differentiate at the school level, 
and then all the way down to the student level, we are going to 
begin to be able to use resources in a more meaningful way. But 
I do believe there is a place for more flexibility with 
resources as long as they are linked to proven strategies and 
there is accountability in place for those resources.
    Chairman Kline. The gentleman's time has expired. Ms. 
Biggert, you are recognized.
    Mrs. Biggert. Thank you, Mr. Chairman. Thank you for 
holding this hearing. My question, I will start with Dr. 
Sichel, I believe. I am somebody that really is concerned and 
working in the STEM community and I think the administration 
really is into this, too. But I think that science scores 
should be given strong consideration as Congress reforms our K 
through 12 accountability system. Right now supposedly the 
schools are moving into science as being included for this past 
year, year and a half.
    In what ways have the accountability provisions of the 
current law affected the way that science is taught in your 
school?
    Ms. Sichel. Thank you, Mr. Chairman. Thank you. Science is 
an integral component to what needs to be measured and to be 
accountable. There is no question that the majority of school 
districts have focused on mathematics and reading and writing 
skills, but science in the last 3 to 5 years has really taken a 
forefront. This is probably the harder nut with which to 
improve because it is very content laden and it is extremely 
difficult to obtain both quality teachers that can excite the 
students to have the content happen.
    However, we have seen that when you have a hands-on 
approach, when you use realistic applications that the students 
understand, such as physics principles and understanding how 
physics is used as a great adventure, there is often a lot of 
excitement that goes along with that. So it is a way to have 
the standard become realistic with students and make sure that 
you have quality people in the room and then to measure it. I 
think science is an area that has been grossly overlooked and 
that we need to get on top of that.
    Mrs. Biggert. So science should really be part of a new 
accountability?
    Ms. Sichel. Yes, it should.
    Mrs. Biggert. Ms. Hawley, I was happy to see in your 
written testimony you did mention that you support the growth 
models and, moreover, that these models should be used to gauge 
the social and emotional development which lays a foundation 
for short and long-term academic and personal success. What are 
some of the ways that assessments, both formative and 
summative, can be used to measure social and emotional 
learning?
    Ms. Hawley. Well, the social and emotional learning really 
comes from the program and the environment that you provide to 
the students and the quality teachers and the quality 
instruction. When a child feels the basics--when a child feels 
safe and secure in an environment, then they are ready for 
learning. So in terms of assessments, both formative and 
summative, we are going to find that students will perform 
better if there is an environment that is conducive to 
learning.
    Mrs. Biggert. Do you think that teachers and principals are 
familiar enough with the positive aspects of this type of 
learning?
    Ms. Hawley. Absolutely. Certainly not everywhere, but in my 
experience, especially at the elementary level, a lot of what 
we are doing is school-ready at the beginning, in early 
childhood years. It is getting students ready for learning and 
ready for school. And in my experience I understand the 
importance of the whole child and making sure that what we are 
providing is an experience that would promote learning.
    Mrs. Biggert. Do you think that there is any legislation 
necessary in this area?
    Ms. Hawley. I think if we look at measured progress and 
progress along the way, ongoing progress, ongoing assessments 
is really what I mean, I believe that that will address that.
    Mrs. Biggert. Thank you. I have got one more question. I 
have heard from some of the educators who regret that they have 
missed out on what they call a teachable moment and because it 
often requires risking a loss of ``instructional time,'' and 
the rigid focus, which has been talked about, of teaching to 
the test and afraid that then their scores will be lower. I 
think this all will change hopefully, but what suggestions do 
you have for broadening the scope of subject matter while 
maintaining accountability?
    Chairman Kline. Excuse me, unfortunately as much as I would 
like to hear the answer to that question, the gentlelady's time 
has expired.
    Mrs. Biggert. If I might submit that for the record.
    Chairman Kline. You may. I would love that. The trouble is 
we really want these answers, we are just out of time and got a 
lot of members who need to ask questions. So they will throw 
daggers at me later.
    Ms. Hirono, you are recognized.
    Mr. Hirono. Thank you very much. This committee has had 
many hearings over the years on appropriate changes to No Child 
Left Behind and I think that--because there is consensus around 
allowing States to use the growth model and that is also 
verified by all of you. If there was one other priority part of 
No Child Left Behind that you would want to change, what would 
that be?
    I ask that of all of you very briefly.
    Ms. Skandera. Mr. Chair and members of the committee, I 
would say that I think it is the differentiated accountability, 
the ability to differentiate between a pass-fail model that we 
currently have and capture a more nuanced approach to what is 
happening when it comes to growth and progress in our 
classrooms so that intervention and resources can be targeted 
and most effective in a meaningful way.
    Ms. Sichel. I would share with that, that one of the most 
important things that needs to be considered in the 
reauthorization is the accountability measures for growth for 
special needs children, special education children. They need 
to be measured according to their individual educational 
program, not according to some arbitrary measures that are 
placed upon either the school, the district or the State or the 
Federal level dollars.
    Mr. Hirono. Let me just clarify. I wanted to know whether 
there was something else besides allowing the use of growth 
models because there is consensus that we ought to make those 
appropriate changes. So anything besides?
    Mr. Carvalho. Chairman, I will give you three. Number one, 
I think it is time to ensure fair accountability by providing 
flexibility for special needs students, special education 
children, and English language learners, and out of formula 
adjustments by requiring identical tests for Title I and Title 
III students in nonpublic schools. I think if we are going to 
have an accountability system it ought to be for all.
    Two, I think the time has come to establish new 
qualification requirements, and I spoke about this issue of 
teacher quality, nothing more important. Establishing new 
qualification requirements for teachers and paraprofessionals 
to ensure that teachers are highly skilled in content areas as 
well as pedagogy.
    And last but not least, it is embedded in the formula, 
recognizing great variance in the distribution of immigrant 
funds in Title III based on a formula that often ignores the 
total number of recently arrived foreign born children. It is 
complex to arrive at that formula. I think a more targeted look 
at specific nuances by regions needs to be considered.
    Ms. Hawley. One issue that would be helpful, which makes it 
flawed, is the focus, the over focus on certain groups so that 
that is at the detriment of other groups that we need to focus 
on.
    Mr. Hirono. Thank you. There is recognition as 2014 comes 
around the corner that so many schools, in fact a lot of 
schools, the majority of the schools in our country will not 
meet AYP. So Secretary of Education has established a waiver 
process. Are all of your States going to apply for that waiver?
    Ms. Skandera. Mr. Chairman, I will say New Mexico will be 
applying for the waiver. I would emphasize two or three things 
in that waiver application I think is very important. Number 
one that a high bar be maintained when it comes to 
accountability. Number two, that differentiated accountability 
and growth be absolutely prioritized. And also to my 
colleague's point about effective teaching and school leading, 
that we begin to provide flexibility and encourage States as 
they seek to honor and acknowledge effective teaching linked to 
improve student achievement.
    Mr. Carvalho. Chairman, I certainly have had conversations 
with the Commissioner about the necessity of applying for the 
waiver and we are in conversations regarding that matter. I do 
believe that Florida will be submitting a waiver.
    Mr. Hirono. What about the other two?
    Ms. Sichel. Pennsylvania is still wrangling on whether they 
will be submitting a waiver or not. So I cannot speak about the 
direction they will take. Thank you.
    Ms. Hawley. And I don't know whether Maryland is.
    Mr. Hirono. My next question on the Early Learning 
Challenge Fund, are your States applying for those grants, $500 
million in grants.
    Ms. Skandera. Mr. Chairman, yes. New Mexico is applying for 
that with an emphasis on the importance of reading and aligning 
our standards from pre-K through third grade.
    Mr. Hirono. Yes to all of you? Thank you.
    I only have a little bit of time. I was very excited to 
hear about the Parent Academy, because we know what the factors 
are that go into a successful school, great teachers, 
principal, leaders and parental involvement. We have been 
wrestling with how do we get parents more involved.
    I would like to get a little more information from you, Mr. 
Carvalho, as to how that works in your statement. I have run 
out of time. I will follow up with you.
    Chairman Kline. We really would like answers for the record 
here. Staff will be working with you. The Parent Academy and 
background discussion here would like more information on that. 
The gentlelady is right, her time has expired and, Mr. Hunter, 
you are recognized.
    Mr. Hunter. Thank you, Mr. Chairman. First question is 
this: Doctor, you talked about your district building systems 
to collect and analyze data to improve instruction. Ms. Hawley, 
in your testimony you talk about the importance of using 
assessment data to inform instruction. The question is this: 
Are your metrics and evaluations specific enough and advanced 
enough to be able to say it is the principal's fault, it is the 
teacher's fault, it's a lazy kid, it's parents' fault? Can you 
break it down? How do you know whose fault it is, one. And two, 
is there any room for Federal involvement in analyzing your 
data for your growth model that is specific to you?
    That is my first question for all of you. My second 
question is this, since the growth model is specific to a 
subgroup or is specific to an individual child over time, I 
guess you could have relevant growth models that you can 
compare and contrast between different subgroups if they have 
the same type of background, but can you have a standardized 
growth model that the Federal Government can use or impose upon 
you to say, hey, this is the growth model you are going to use 
and it is kind of--I guess the question is this, is there such 
as thing as a one-size-fits-all growth model?
    Those are my two questions.
    Ms. Skandera. Mr. Chairman, members of the committee, no, I 
do not believe there is such thing as one-size-fits-all. And 
when it comes to kind of getting back to the core question 
today about what is the role of the Federal Government, I do 
believe it is to have high expectations and hold our States 
accountable for the resources and investment but to allow 
States, because they know best what will serve their students 
and schools and districts, to allow them to establish the next 
layer of how do you measure, et cetera. So have a high bar, 
make sure we are getting a good return on investment and 
improving programs, but don't prescribe how we get there.
    Mr. Carvalho. I agree with my colleague. So I won't repeat 
what she said. The only thing I will add is the value of the 
growth model is not to be able to compare one subgroup to 
another. The value of the growth model is to actually compare 
that group to itself, to compare the child to itself over time. 
If you don't do that, you are comparing two different groups of 
student cohorts over time, and that really in many instances 
does not make sense. This year's group of ninth graders may not 
necessarily be equivalent in terms of their preparation leaving 
middle school as last year's group of ninth graders. And when 
you do not use a growth model comparison, you are really 
comparing one group of students to a very different group of 
students.
    The beauty of a growth model, if arrived at in a very 
legitimate way, it actually allows for a clear examination, 
data driven examination, of the same cohort of children down to 
a single kid over a period of time. That is exactly what you 
want to see. That is what we do in the private sector. Once you 
hire somebody over time are they producing and meeting their 
goals? How do they produce year one up to year two. And I think 
there is a great deal of merit to actually reflecting that same 
philosophy in a public sector, in public schools.
    Ms. Sichel. I couldn't concur with my colleague more. A 
growth model that is based upon data that is multi-dimensional, 
standardized test scores, formative assessment, local driven 
assessments, common assessments, grade levels and curriculum 
that brings it down to the individual level, the class level, 
you could see growth over time, and I think that is what is 
most important. And in Pennsylvania we have a very successful 
growth model that should be the basis of what we are doing and 
it should be State driven.
    In terms of your first question was--you use the term 
looking at fault. I think here what is more important is to 
look at root causes. If we can identify what is needed in that 
classroom for those children and then go in and intervene, we 
will make a mountain of difference with children.
    Mr. Hunter. Can you do that? That was my question.
    Ms. Sichel. We can do that with a quality growth model that 
pulls all the data together, and we have to give teachers and 
principals the time to analyze their data and get in there and 
intervene and then there has got to be consistency over time. 
You don't change the focus, change the intervention. It has got 
to be clear, driven goals that go on over time for a long 
period of time.
    Mr. Hunter. I am running out of time, so let me drill down 
on the growth model really quick then. Is it even possible for 
the Federal Government to, let's say, reward success or punish 
bad behavior then State by State based on a growth model? If 
you are comparing a student to him or herself over a period of 
time, how would you compare a school to another school or a 
school district to another school district or a State to 
another State when the growth model is only specific to another 
individual or even a subgroup to itself over time?
    Ms. Sichel. With a growth model you can roll it up from the 
individual to the classroom to the grade level to the school to 
the entire district. That data is available and there are ways 
to look at it, but it is progress over time. It is not this 
year's ninth grade to last year's ninth grade. It is how this 
year's ninth grade did and did they improve more than a year in 
1 year, because every year a child is in school there should be 
at least 1 year of academic growth if not more.
    Chairman Kline. And the gentleman's time has expired. Mr. 
Holt.
    Mr. Holt. Thank you, Mr. Chairman. I thank the witnesses 
for good testimony. I had to leave the room during some of the 
questioning and so let me talk about some things and ask you to 
talk about some things that might be repetitious, but even if 
they are, they are important enough. I think it warrants it.
    Science education. I know Ms. Biggert touched on that and 
talked about the resolution we have that says in any 
reauthorization or other actions, strong consideration should 
be given to science education in accountability, in any 
accountability measurements. And I am sure it has been said but 
it is worth saying, you know, science is not just another 
subject, whether we are talking about jobs that will await 
students, the technological innovation this country needs, the 
global competitiveness or whether we are talking about the fact 
that students like science unless they are told that they 
don't. And students who do well in science, especially those 
who are not planning to become scientists, tend to be students 
who do well in other subjects. And there is some evidence that 
there's some causality there, that the science actually helps 
them.
    And I think it is a route, and for many students the best 
route, for critical thinking, understanding the value of data 
and observation and experiment and so forth. The question is 
will it work. Can we, now that we are collecting, we are 
testing and collecting data on science, can it be included 
reasonably in an accountability system.
    Let me start in reverse order with Dr. Sichel here, if you 
have thoughts on that.
    Ms. Sichel. Thank you, Mr. Chairman. Yes, it absolutely can 
be included in the system of accountability. There are national 
and State science standards that we believe all students should 
be graduated from our high schools with the ability to master, 
whether it is Earth science and biology and chemistry and 
physics. There are components of all of those subject areas 
that are crucial to be good citizens, career, lifelong 
learners, higher education, et cetera. So it needs to have just 
as important a place as reading, writing and mathematics does.
    Mr. Carvalho. To the extent that you assign importance to 
reading and math, and those are the two key criteria on No 
Child Left Behind, I do believe that assigning importance to 
science and writing is equally important. There is a reason why 
American children are performing comparatively better in 
reading and math than their international counterparts than 
they are in science. It is because what you don't measure sort 
of denotes you don't value it. So there is a lot to be said. 
Take it from a former physics teacher.
    Mr. Holt. I know that you were, and I was pleased to see 
that, I must say.
    Mr. Carvalho. A physics teacher and chemistry teacher both 
at the high school and college level courses. If you value it, 
you need to engage in the degree of data collection and 
measurement across the country. You are not going to be able to 
reach the 25th in the world performance in science unless you 
do so. Nobody in Finland cares about how people in Georgia are 
doing or California or Florida. They are all betting that we 
don't reach the 25th in the world ranking as a Nation because 
they keep on improving.
    So I do think that, beyond Sputnik I think we lost some 
momentum and it is time to regain it. And to a previous 
question is it possible, in part of an earlier question is it 
possible to do, of course it is possible. The Nation that put 
the first man on the Moon can absolutely do this. This is not a 
skill set problem.
    Mr. Holt. We know how to teach science. Students want to 
learn it. The question is can we make it part of the 
accountability system?
    Ms. Hawley.
    Ms. Hawley. I agree that we can. I think that we need to be 
careful on how we assess that, because often in the assessment 
you are not always assessing just the knowledge base. It comes 
back to math and reading--well, reading and writing and things 
like that. So I think that we need to approach it from the 
angle that we need to look at what exactly are we assessing. 
But absolutely.
    Mr. Holt. I was alluding to the fact that I would like to 
see it assessed in a way that particularly looks at its value 
for the nonscience students.
    Ms. Skandera.
    Chairman Kline. The gentleman's time has expired, I would 
love to have your answer in writing if we could, please.
    Dr. DesJarlais.
    Dr. DesJarlais. Thank you, Mr. Chairman. And thanks to the 
witnesses. The first question is going to go to Dr. Sichel and 
Ms. Skandera. We have seen graphs showing that over the past 30 
years, despite increased Federal spending, we have not seen 
great improvement in NAEP scores compared to other 
industrialized nations.
    How can the Federal Government, and feel free to be very 
candid, best ensure taxpayer dollars are spent effectively and 
the parents have options to escape struggling schools?
    Ms. Skandera. Mr. Chairman, I mentioned earlier, one, I 
believe there are strategic levers for change, and one is 
asking the big question what is the best return on our 
investment. When it comes to the Federal Government I believe 
they can provide us flexibility when it comes to funding but 
hold us accountable for the investment to be made in proven 
strategies. So we have got plenty of research out there today 
that tells us things that work and things that don't. It is no 
longer to me appropriate to send down hundreds of millions of 
dollars to States today without the expectation that there is a 
link to proven strategies for improved student achievements. 
That is our expectation of the State and I believe that is also 
good taxpayer accountability as well when it comes to funding.
    So my ask and request as we look at reauthorization is that 
as monies flow through that States also would have the ability 
when we are failing in our schools to hold our schools and 
districts accountable in that failure for investing in proven 
strategies.
    Dr. DesJarlais. Dr. Sichel.
    Ms. Sichel. What I would like to add to that, because I 
think the response really addresses many of the things that 
need to be done, is it has got to be State driven with 
flexibility, but what also has to happen is transparency. Every 
school district across this country has an obligation to post, 
to have a community meeting, to have a school meeting, both 
school and district related report cards, if you would call it, 
much as Florida does or New Mexico is talking about, where we 
rate and rank how our schools are doing, where we talk about 
our successes, where we talk about our targeted needs, where we 
invite parents and community members to be a part of our 
collaborative effort to make a difference.
    Transparency is really important. You need to put out you 
are good, you are bad and you are ugly and deal with it.
    Dr. DesJarlais. Thank you. Ms. Hawley, through the school 
improvement grants program the Department has mandated that 
States and school districts receiving those funds use one of 
the four turnaround models. What are the downsides to mandating 
one-size-fits-all Federal requirements for improving low 
performing schools?
    And I would just add that I represent a very rural district 
area in Tennessee's Fourth District. And as we were talking 
earlier, sometimes a good applicant pool isn't available and a 
lot of these turnaround programs eventually require replacement 
of teachers, principals and administrators.
    Ms. Hawley. Well, first of all, I would like to address the 
aspect of the turnaround model where the automatic firing of 
principals. My belief is that schools should be given--you 
know, if a school is struggling, failing, schools should be 
given the authority, autonomy, time to identify what the needs 
are so that they can address what those specific needs are. I 
think we need to look at the whole turnaround model as a whole 
and look at specifically what each school needs and make sure 
that schools are provided with the tools they need in order to 
pinpoint what their specific issues are so they can succeed and 
progress.
    Mr. DesJarlais. All right. Mr. Chairman, I yield back my 
time.
    Chairman Kline. I thank the gentleman. Ms. Woolsey, you are 
recognized for 5 minutes.
    Ms. Woolsey. Thank you, Mr. Chairman. It is clear, and we 
all know this, that when a youngster enters the classroom if 
that youngster is ready to learn that it makes a big difference 
in the results of that school day, that school year, and it 
really makes a big difference in how the teacher is evaluated 
because all public schools teach all kids and they come from 
many economic backgrounds, they come from all kinds of 
situations and many home situations that make it impossible for 
them to enter the classroom feeling safe, having had a meal 
sometimes, feeling--being healthy physically or mentally and 
feeling at all secure before and after school.
    So, Mr. Carvalho, you in your written testimony talk about 
wraparound services and about bringing services to some of your 
schools. And I would like to know if any of the rest of you, I 
don't know if you call them wraparound services, I call them 
coordinated services, it is bringing the services to the school 
site that these particular communities would benefit from 
having the student and absolutely affecting the outcome and 
affecting the scoring for some teachers. So would you start 
with what you do?
    Ms. Sichel. Thank you, Mr. Chairman, I would be happy to 
address that. I am going to specifically focus on one of our 
elementary schools that has the highest rate of poverty, the 
most socioeconomically disadvantaged children, so it really 
does address what you are talking about.
    What is important is the first thing is a no excuses 
approach. We are not going to change their home situation, we 
are not going to change their socioeconomic level, but they are 
our children and we need to help them become ready to learn. So 
as soon as they have crossed our doorsteps we need to use a 
variety of assessment measures to find out where they are. And 
if they are not ready for the full day kindergarten program 
that we offer, then we have got to move in with a whole bunch 
of remedial sources and attempt to get them up to stuff as soon 
as possible. Included in that procedure is to engage their 
parents right away, to try to, quote, contract with their 
parents to be reading with them at home at night, to be doing 
their homework, to be making sure that meals are provided, to 
using our local community to provide medical services when 
needed, getting glasses and things like that. You have to be 
resourceful and you have to turn around and say we are going to 
get in there, roll up our sleeves and do whatever it is we can 
to make our children ready to learn.
    In the school that I am thinking about we had that kind of 
situation. And we really spent the last 2 years dealing with 
the staff. They are saying what do you need, what is going to 
happen, what is going to make a difference, but we are going to 
hold you accountable. And I am real pleased to say that over a 
2-year period one of our lowest functioning schools is now 
beginning to catch up with some of our more affluent schools 
that didn't have to do the work as difficult as this building 
did. It can be done.
    Mr. Carvalho. Mr. Chairman, I will offer about four of the 
examples of the wraparound services that we provide. This is 
one of those things that one plus one is more than two, the 
value of partnerships, community partnerships. So number one, 
you know, I never met a broken kid but I have met a lot of--I 
have come across a lot of broken systems and broken systems 
usually allow for broken kids to come into our system. So 
important factors in a wraparound service are those first and 
foremost dealing with school health. So we partner through our 
school Health Connect partnership with the University of Miami 
and other entities that provide early screening even before 
kids come to our schools and provide school clinics in schools 
to make sure our kids don't have to leave school and be absent 
to get critical care. We have gone actually and put an RFP on 
the street to open our own health care clinics, not only for 
our workforce, but for parents of those kids, managed privately 
but in our schools.
    Second, the value of social work as a school psychologist, 
privately funded, as well as publicly funded, provides an 
essential component of the wraparound model.
    I spoke about the value of the Parent Academy in providing 
educational services to the parent community in the three 
different pillars so that parents understand the school system 
that they send their child to and make wise choices that lead 
to demand driven reform in our public schools.
    And last but not least, you know, we are a county-wide 
system spanning over 34 different municipalities. So as 
superintendent I have negotiated about 14 different municipal 
compacts with mayors, to in a very regional almost zip code 
driven way arrive at negotiations that bring value added to the 
lives of kids and parents. So cities make actual investments in 
social issues in our schools. If a community decides to have an 
international baccalaureate guarantee for all the schools, you 
know, help me get there, let's pony up money to afford the 
professional development for the IB program for teachers. That 
is the case for the City of Miami Beach.
    So that is sort of just the flavor for the wraparound 
services we have in our school system.
    Ms. Woolsey. Mr. Chairman, can I ask a question to be 
answered in writing?
    Chairman Kline. You may, if it is a short question.
    Ms. Woolsey. It is a very short question. I would love it 
if each one of you would answer. Should the waivers be--should 
wraparound services be evaluated in part of the decision on 
whether a district or a State should receive waivers?
    Chairman Kline. We will take those for the record. Mr. 
Andrews.
    Mr. Andrews. Thank you, Mr. Chairman. Thank you for having 
this hearing and for bringing us four excellent witnesses that 
have been very responsive and really cleared up a lot of 
issues. Thank you, ladies and gentlemen.
    Dr. Sichel, did I pronounce your name correctly, Sichel.
    Ms. Sichel. Sichel.
    Mr. Andrews. Dr. Sichel, I think you have accentuated a 
point the committee takes very seriously, that there has been 
more closure in the gap between minority students and white 
students in the 10 years since No Child Left Behind than there 
was in all the other years put together since 1965, and it has 
accelerated I think because of No Child Left Behind. And I 
think we need to be very careful not to lose sight of that 
fact.
    Is there anything--and you cite the remarkable progress 
that you are making with African American children in your 
district and young people. Is there anything in No Child Left 
Behind as it is presently written that impedes your ability to 
continue that progress?
    Ms. Sichel. In thinking about how to respond to that I want 
to balance the positive impact that No Child Left Behind has 
made, but I also must share with you that we have had a 
problem--we have had a process, excuse me, of data driven 
decision making since 1990. It is not new to the Abington 
School District. If you have data, you need to manage it. And 
we have been managing it for well over 20 years.
    So that needs to be the forefront of any single program 
that goes on. Now, what No Child Left Behind did for us is 
opened our eyes to the fact that the old group wasn't the only 
data that we should manage, that we should be looking at it 
from a desegregated point of view.
    Now, what gets in the way is this whole issue of one-size-
fits-all, and let me give you an example of Abington Senior 
High School, where presently over 80 percent of our children 
are proficient in reading and mathematics, where our 
economically disadvantaged and our African American children 
are approaching 70 percent in many cases. What is happening is 
with our special education students, they are at best 40 to 50 
percent proficient, though when we started this process they 
were 20 percent proficient. So they have made remarkable 
results.
    I think we have to be flexible. We have to look at 
attainable goals.
    Mr. Andrews. Are you saying that there are resources that 
you are taking to address the demands on the special ed side 
that are degrading the quality of what you are trying to do for 
nonspecial ed kids? What is the impediment?
    I think you have accurately described a problem with the 
way we measure AYP for special ed kids. I agree with you. The 
question I asked was what is there in the law that is impeding 
you from continuing the progress that you are making.
    Ms. Sichel. Well, there is nothing in the law that is 
continuing from impeding the progress. But what will happen if 
this continues is this high school will be considered a failing 
high school when it is one of the premier high schools in 
Pennsylvania.
    Mr. Andrews. Let me come to this point. I know it. I live 
in Haddon Heights, New Jersey.
    Ms. Sichel. There you go, so you know.
    Mr. Andrews. And Abington has a great reputation, richly 
deserved.
    I will ask any or all of the four of you this. I think I 
heard a consensus that a growth model should replace the 
present static model. I agree with that. And Mr. Hunter asked a 
question I want to follow up on, which is the ideal growth 
model is one that drills down to the level of the individual 
student. I think we should head in that direction. But given 
that aspiration to get down to one student at a time, what 
parameters should we put around acceptable or unacceptable 
growth?
    And I realize that there should be a different answer for 
every child. But let me phrase the question this way. What do 
you think the mean or median progress should be in any given 
year for a child to have achieved success under a growth model? 
How much is enough?
    And again, I understand it is going to be a wildly 
different answer given the child's situation coming in. But 
looking at the middle, the bell curve, the 50th percentile kid, 
what do you think is enough progress under a growth model?
    Mr. Carvalho. Mr. Chairman, how about one year's growth 
during one year's time. One year's worth of teaching results in 
one year's worth of growth.
    Mr. Andrews. Anybody disagree with that?
    Ms. Sichel. No, I don't. And Pennsylvania's model is based 
on that. We have schools that are considered in the green and 
they do more than one year's growth, we have schools that are 
in the yellow which are one year's growth, exactly what it 
should be.
    Mr. Andrews. I completely agree with that proposition. I 
think that is very fair. And I think there should be standard 
deviations.
    Yes, ma'am.
    Ms. Skandera. Mr. Chairman.
    Mr. Andrews. I am not the chairman.
    Ms. Skandera. And members of the committee.
    Mr. Andrews. Am I Mr. Kline?
    Mr. Miller. Apparently. You are using her time.
    Ms. Skandera. Absolutely the expectation of one year's 
worth of growth in one year's time. But I would add an 
additional component. When we begin--and you asked previously 
what is impeding us, and I mentioned multiple times the 
importance of having the freedom and flexibility to acknowledge 
effective teaching linked to improved student achievement, and 
here is why. Because we have students that are coming in so far 
behind that one year's worth of progress in one year's time is 
not going to get to closing the achievement gap in a meaningful 
way. At some point we have got to acknowledge, do you know 
what, an effective teacher, and there is plenty of research 
that tells us this, can close more than one year's progress in 
one year's time. And we need to acknowledge and reward that in 
a way that is meaningful because we must do it.
    Mr. Andrews. I thank the witnesses for excellent 
presentations today. Thank you.
    Chairman Kline. The gentleman's time has expired. Mrs. 
Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you to all of 
you. I am going to follow up, Ms. Skandera. You just mentioned, 
and this is really my question, about effective teaching. As I 
have sat here, and I missed some of the discussion, I haven't 
heard much discussion of teacher and principal evaluations. I 
would like to know where you see that fitting in. What is the 
Federal role in either incentivizing, in using a carrot and 
stick approach?
    Obviously all the schools that receive funding from the 
Federal Government should have a system in place. That should 
be a local decision, a statewide decision. I served on the 
school board in a major city, so I understand how important 
this is to have this buy-in at the local level. But what role 
does it play in that? What would you like to see? If there is 
language in the reauthorization, how should it motivate, 
incentivize, have accountable school systems that do this in a 
way that creates a widely acknowledged and accepted system for 
doing that which actually moves toward better achievement of 
kids, not just in and of itself?
    Ms. Skandera. Mr. Chairman, members of the committee, as we 
were talking about earlier, I believe the role of the Federal 
Government is to encourage States and provide the freedom for 
them to pursue these different evaluation systems that begin to 
acknowledge improved student achievement. Today the law 
emphasis is the highly qualified status, which is more linked 
to years of experience and credentialing. We need to make that 
shift and encourage that shift in our States.
    Mr. Carvalho. I would add to that that we encourage, 
incentivize, financially incentivize. And I think it is fair to 
even push as hard as the establishment of new qualification 
requirements for teachers and leaders across the board that 
result in pay consideration for teachers in fields in which 
there are shortages in high need communities, create career 
ladders. Because right now if a teacher wants to move on, move 
up, usually the only option is to leave the teaching profession 
and become an administrator. There has to be career ladder 
options for teachers that recognize great talent.
    And last, perhaps even envisioning assistance with housing, 
particularly in areas where housing costs are extremely high, 
to incentivize great teachers and reward them with housing 
assistance.
    Ms. Sichel. Mr. Chairman and the committee, I would share 
with you that school districts that are making a difference do 
have very fine-tuned teacher and principal evaluation systems 
that do have components of student accountability built in. 
Pennsylvania is very much moving in a direction to require that 
statewide. I think there has to be some ability for the school 
district and the State to negotiate what that should look like 
based upon the needs of the school and where you are at. Some 
of us are ready to do that, some of us are not ready to do 
that. But it is important that we are product-driven when it 
comes to children, we need to be product driven when it comes 
to professionals as well.
    Mrs. Davis. Is there a reasonable amount of time that one 
could ask of a system, I assume this would be at the State 
level initially, to develop that? I mean, you have seen--you 
have a strong data system.
    Ms. Sichel. Yes.
    Mrs. Davis. Performance-based data system, as I understand 
it, and that is great. But absent that, I mean, if you don't 
have that in your district and yet you want to use performance, 
but you don't want to use it entirely based on data, I think 
the industrial skills that we are talking about is also a 
measure of success for students and something that should be 
built in. How do you do that? What does that take on your--and 
where does that buy in? How do you do that?
    Mr. Carvalho. Well, Mr. Chairman, to the chair, in Florida 
there is legislation that requires that every district by a 
certain timeline develop and negotiate in many cases a 
performance system for evaluation of teachers, and in my 
position for leaders as well, that incorporates student 
outcomes as part of that measure, usually along the lines of 50 
percent. It is actually objectively driven by the State's 
accountability exam, the FCAT, the Florida Comprehensive 
Assessment Test. And 50 percent of that evaluation is relegated 
to the local districts to develop, some of which can 
incorporate objective local data as well, and we do. The same 
thing applies to the leaders, to principals and assistant 
principals. And what we have gone as far as doing this year, 
and the ratification vote took place 2 weeks ago and benefited 
from an 84 percent ratification vote on the part of the 
teachers, is that we arrived at that model 3 years earlier than 
some of the requirements that take full advantage of a race to 
the top Federal investment. We arrived at that model, we 
developed a contract and a performance evaluation system that 
incorporated objective measures, and many of those tied to 
student performance data.
    Chairman Kline. The gentlelady's time has expired. I would 
like to recognize Mr. Miller for any closing remarks.
    Mr. Miller. Well, thank you very much. And first of all, 
Mr. Chairman, let me thank you for assembling this panel. I 
think it has been a remarkable morning. And I think given their 
very backgrounds in the districts and the levels of which they 
operate in our educational system, they have really described 
where I think we would like to end up in the reauthorization of 
No Child Left Behind and where I think new teachers would like 
to go to work. Because the districts that you are 
administering, the schools that you are administering, start to 
begin to sound like the modern workplaces that their friends go 
to work in and not something that is stuck in the past, a 
workplace that is stuck in the past.
    I think it also recognizes that school districts are a very 
different place than they were 10 years ago when we did No 
Child Left Behind and they were a very different place when we 
did No Child Left Behind for whatever preceded it on ESEA.
    And what I also think I am hearing from this panel, and you 
can respond to that in writing if I didn't hear it right, but 
is the idea that the stakeholders are greater than we 
traditionally thought about in schools. It is no longer just 
the principal or the teacher, it is no longer just the school 
board.
    Dr. Sichel, you mentioned in your opening statement about a 
collaborative process that goes through with these 
stakeholders. And a number of you have mentioned the question 
of the involvement in the community, whether it is the academy 
or it is the process of meeting with the community, is getting 
a lot of attention, because I think a lot of people are asking 
the same question, what return am I getting for sending my kid 
to this school and paying my taxes to support this school.
    I think the most dramatic example of that is in California, 
and I think being adopted in some other States. I don't think 
it is the best necessarily, but I think it is indicative of how 
we have to pay attention, and that is the parent trigger. That 
there are parents who just say, wait a minute, this school has 
been failing for year after year after year after year, I 
happen to live here, I need to live here, I want a better 
school and I am not going to--you know. And that is viewed as--
some people believe that is a warning shot in combat. No, it is 
not, it is a cry for help, and hopefully a cry to be involved 
in how that is designed.
    Ms. Woolsey raised a question about wraparound services. 
Many of the members certainly on this side of the aisle are 
very concerned about that. And when I look at districts now, 
and Mr. Carvalho, you sort of suggested this, but in my 
discussions with Oakland School District in California with 
Tony Smith, the partnerships that you have to create to keep 
this district viable and responsive to your constituents, the 
students, are numerous. And what we are working our way through 
is to try to figure out how you can look, you know, again, I 
want this money spent on the poor children. But we understand 
in many instances Title I becomes a block grant with the high 
proportion of students in that school. But the idea of being 
able to repurpose the spending of Title II money and Title III 
money, as you pointed out with the English learners, to think 
about how do we repurpose the SES money, what can schools do 
with that. It starts to give you the opportunity to really 
think about working within existing resources. And I say that 
simply because those are the economic conditions that we are in 
at this time, but I can't--you know, I am not going to 
sacrifice, I am not going to be part of the first generation to 
sacrifice our children to a recession. So we have to rethink 
about how to do this so you can use your best judgment on how 
to cobble that.
    But my sense of flexibility is based upon the idea that we 
do have these high standards and that we maintain this high 
bar, Ms. Skandera, that you kept talking about. That you know 
we went through--out of the last 10 years we have gone through 
about 8 years where people just pounded on it and said but for 
that one kid with disabilities or but for those English 
learners we would be an all-star school. I got news for you, 
they weren't before and there wasn't a lot of likelihood. There 
are some specific cases, but this has become almost urban 
legend. And while we are saying we don't want to accept one-
size-fits-all, we don't want to give up on one-expectation-for-
all. And you know playground English isn't good enough if you 
really want those English learners to participate in this 
democracy and this economy. And we can't lose sight of that.
    And we have struggled, and I mean struggled, because we 
know the problems presented by students with disabilities. We 
also know we see again school districts that are doing 
remarkable work with those students. We see the fastest 
acceleration in Massachusetts is among students with 
disabilities on a very rigorous exam. They are not all going to 
get there, but we can't trade that in. And I really appreciate 
you talking about maintaining that high bar and that access to 
that opportunity at that high bar, because if that is there 
then the options for us are greatly expanded in terms of really 
having you administer the outcomes.
    So thank you very, very much for your spending this time 
with us this morning.
    Chairman Kline. Thank you, Mr. Miller. I want to extend my 
thanks again to the panel. We have a lot of excellent panels 
here with really, really good witnesses. You are at the top of 
the list. Absolutely fantastic. The work that you are doing, 
the innovation that you are bringing, the challenges, your 
participation here today, you have been fantastic. But you can 
see how we are grappling. It is sometimes easy, and I don't 
mean to be pejorative or anything here, but it is fairly easy 
to say to us that the Federal Government should, quote, 
encourage, it is a lot harder for us to figure out what exactly 
does that encourage mean. And it is, again, fairly easy to say, 
well, you should set a high bar and then leave it to us to 
decide how to achieve that. Well, what is that high bar, how do 
we define that? Is it do we mandate a Common Core, do we 
mandate a common assessment and then it makes it high? I don't 
think so. But those are the things that we are grappling with.
    I mentioned in my opening remarks that Mr. Miller and I 
often agree on a great deal of what the problem is and we agree 
almost exactly on what part of the solution is. It doesn't mean 
that we have yet agreed on what this piece of legislation 
should look like. And so your input today and the input we are 
going to get from other panels, people who are addressing the 
problems of how do we get our kids to achieve what we know they 
can, all of the kids, to the point that Mr. Miller made 
earlier, we don't want to start leaving any children behind, 
those are problems that you are grappling with and have made 
remarkable, remarkable progress. So at the very minimum I want 
to make doggone sure that as we move forward we don't do 
anything that impedes, to the question that was asked by a 
number of my colleagues, what you are trying to do.
    So again, thank you very, very much for your great work, 
and thank you for being here today. There being no further 
business, the committee stands adjourned.
    [Questions submitted for the record and their responses 
follow:]

                                             U.S. Congress,
                                Washington, DC, September 29, 2011.
Mr. Alberto Carvalho,
Miami-Dade County Public Schools, 1450 N.E. Second Avenue, Suite 912, 
        Miami, FL 33132.
    Dear Mr. Carvalho:  Thank you for testifying before the Committee 
on Education and the Workforce at the hearing entitled, ``Education 
Reforms: Examining the Federal Role in Public School Accountability,'' 
on Wednesday, September 14, 2011. I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
Committee after the hearing. Please provide written responses no later 
than October 13, 2011, for inclusion in the final hearing record. 
Responses should be sent to Dan Shorts of the Committee staff who can 
be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
Committee.
            Sincerely,
                                      John Kline, Chairman,
                          Committee on Education and the Workforce.
                   representative mazie hirono (d-hi)
    1. Mr. Carvalho, could you please provide me with a little more 
information about how the Parent Academy works in your state?
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                             U.S. Congress,
                                Washington, DC, September 29, 2011.
Ms. A. Blaine Hawley,
Red Pump Elementary, 600 Red Pump Road, Bel Air, MD 21014.
    Dear Ms. Hawley: Thank you for testifying before the Committee on 
Education and the Workforce at the hearing entitled, ``Education 
Reforms: Examining the Federal Role in Public School Accountability,'' 
on Wednesday, September 14, 2011. I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
Committee after the hearing. Please provide written responses no later 
than October 13, 2011, for inclusion in the final hearing record. 
Responses should be sent to Dan Shorts of the Committee staff who can 
be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
Committee.
            Sincerely,
                                      John Kline, Chairman,
                          Committee on Education and the Workforce.

                    REPRESENTATIVE JOHN KLINE (R-MN)

    1. Effectively using assessment data is an important part of 
quality classroom instruction. Could you describe how that process 
works, what you are developing and implementing in your school to build 
this capacity among your teachers, and the impacts of such an approach 
on student learning?
    2. What types of parental engagement strategies have you 
implemented to engage parents in their children's education?
    3. Your written statement discussed the importance of locally 
developed curriculum and instruction. Why is the freedom to develop 
curriculum and instruction strategies for your students important?

                   REPRESENTATIVE JUDY BIGGERT (R-IL)

    1. I've heard from educators who regret having to miss out on 
``teachable moments'' because often it requires risking a loss of, 
quote ``instructional time,'' and the rigid focus on 'teaching to the 
test' means teachers risk lower class scores by doing what they know is 
actually best for their students.
    a. What suggestions do you have for successfully broadening the 
scope of subject matter, while maintaining accountability?
    b. Are you concerned that an expanded curriculum would undermine 
the current focus on math and reading, subjects with which our students 
are still currently struggling?
                                 ______
                                 

     Response From Ms. Hawley to Questions Submitted for the Record

    On behalf of our nation's elementary level principals, thank you 
for the opportunity to provide testimony at the hearing held on 
September 14, 2011, ``Education Reforms: Examining the Federal Role in 
Public School Accountability'' as the Committee considers legislation 
to reauthorize the Elementary and Secondary Education Act (ESEA).
    The role of the principal continues to change and become more 
complex and challenging. The current social and educational context of 
the principalship--which combines high-stakes accountability with the 
high ideals of supporting social, physical and emotional needs of 
children--demands that all principals demonstrate the vision, courage 
and skill to lead effective learning communities where all students 
reach their highest potential.
    As requested by you and your staff, please find the attached 
responses to the additional questions for the hearing record.
    Again, thank you for the opportunity to provide the principals' 
perspective and considering the view of school leaders in the 
Committee's important deliberations. If you or your staff have any 
questions, please do not hesitate to contact me at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a0c2ccc1c9cec58ec8c1d7ccc5d9e0c8c3d0d38ecfd2c78e">[email&#160;protected]</a>

                     QUESTIONS FROM CHAIRMAN KLINE

    1. Effectively using assessment data is an important part of 
quality classroom instruction. Could you describe how that process 
works, what you are developing and implementing in your school to build 
this capacity among your teachers, and the impacts of such an approach 
on student learning?

    Principals understand the importance of the role the teacher plays 
in the classroom with data driven instruction and ongoing assessment of 
student progress. The foremost signature of a successful school 
includes a culture of collaboration and teamwork to help every student 
succeed. At Red Pump Elementary, the tactical expectation to achieve 
collaboration includes grade level teams that participate in on-going 
in a Classroom Focused Improvement Process (CFIP) protocols. To begin 
this process, which is implemented district-wide, principals are 
trained on the protocol and provided the necessary materials to allow 
them to bring the professional development back to the teachers.
    As a school, our School Improvement Team develops an annual plan to 
keep our focus on what is crucial for the students we serve in our 
school. Additionally, one of the charges of the team is to find the 
time necessary, often in creative ways utilizing all staff members, to 
allow teachers to meet together--purposefully, to study student work 
instead of faculty meetings. This often occurs before or after the 
school day, as well as carving out other times during the day, and 
includes a cycle of analysis, knowledge of research- based practices, 
instruction, varied assessments and reflection. Together, grade level 
teams and building specialists make collaborative decisions that inform 
instructional practices. Teachers know and understand their students, 
and can better provide a differentiated program for student success. 
Decisions about individual student remediation, enrichment, and 
intervention are essential to the process. Reflection then helps bring 
teachers back together to evaluate the effectiveness of their 
instruction to ensure all students are moving forward.
    In sum, teachers work together as teams utilizing a protocol for 
examining student data, typically gathered from the use of formative 
and summative assessments to have a full picture of a student's 
learning and progress. This approach helps to ground the culture on a 
continuous cycle of effective teaching and improved student 
achievement.

    2. What types of parental engagement strategies have you 
implemented to engage parents involvement in their children's 
education?

    At Red Pump Elementary, parental engagement is the cornerstone of 
our students success. Our mission is to involve parents in every step 
of the learning process and ensure that the social and emotional needs 
associated with learning are also addressed as part of helping all 
students move forward.
    As a principal, a core standard of effective school leadership 
includes engaging the entire learning community focusing on parental 
outreach. In addition to traditional on-going communication routes to 
parents such as monthly newsletters and website updates, we host 
sessions with parents to provide information about academic subject 
areas featuring 'make and take' activities that help parents support 
their children's learning at home. The topic and focus of the 
activities is driven both by the student body, and the School 
Improvement team. As with many school communities, the PTA also plays a 
critical role in our communications and outreach efforts with parents.

    3. Your written statement discussed the importance of locally 
developed curriculum and instruction. Why is the freedom to develop 
curriculum and instruction strategies for your students important?

    While the school district general sets the curricular expectations, 
however, it is the principal's responsibility as an instructional 
leader to provide teachers with the tools and resources needed to have 
the greatest impact on learning in the classroom. Daily formal and 
informal formative assessments are an integral part of every lesson, 
and having the flexibility to tailor the curriculum for appropriate 
instruction to meet the contextual issues in our school building is 
absolutely essential. The principal works to adapt curricular 
strategies that best support teachers and ultimately improved student 
outcomes or learning gains. The reauthorization of ESEA must promote 
the greatest level of flexibility for principals and teachers to retain 
the ability to develop instructional strategies that will best meet the 
individual needs of students--to meet students where they are, and help 
them make progress along a trajectory of successful learning within 
particular content or subject matter area.

                   REPRESENTATIVE JUDY BIGGERT (R-IL)

    1. I've heard from educators who regret having to miss out on 
``teachable moments'' because often it requires risking a loss of, 
quote ``instructional time,'' and the rigid focus on 'teaching to the 
test' means teachers risk lower class scores by doing what they know is 
actually best for their students.
    a. What suggestions do you have for successfully broadening the 
scope of subject matter, while maintaining accountability?

    Federal policy must encourage and support state and local 
assessments that include growth models and multiple measures of student 
performance (both formative and summative) to accurately gauge social 
and emotional development, language fluency and comprehension, 
creativity, adaptability, critical thinking and problem-solving skills.
    As noted, the appropriate federal role in education is to promote 
equity and provide targeted resources to assist states and local 
districts. Federal policies should ask states and local districts to 
set high expectations, but also must support state- and locally-
developed accountability systems, curriculum and instruction to best 
meet the needs of the students in the local school context.
    When alignment between standards, curriculum and assessment is 
successfully accomplished through a mastery of pedagogy and effective 
instructional practice, it is easier to expand the ``core'' content 
areas. Giving teachers the right tools to impact the classroom and 
helping them use data to inform teaching practices on a timely, on-
going basis can help them expand to additional areas that will give 
students are more robust, well-rounded educational experience.
    At the school building level, our teachers work with our special 
emphasis areas to incorporate content both directions--teachers 
incorporate the arts into their teaching on a regular basis, and the 
arts incorporate content area information into their classes. We have a 
school-wide character education program, and our school counselor is 
on-hand to address social and emotional development. In addition, the 
learning day can be restructured so that students understand and see 
the interconnectedness throughout all areas of the curriculum, 
including art and music.

    b. Are you concerned that an expanded curriculum would undermine 
the current focus on math and reading, subjects with which our students 
are still currently struggling?

    Children must be educated to meet the demands of the 21st century. 
In addition to succeeding in subject matter, the four C's--creativity, 
collaboration, critical thinking and problem solving, and 
communication--all factor into the quality of an educational 
experience. If we continue to focus solely on math and reading and 
neglect the areas we know give students the 21st century skills needed 
to succeed in today's workforce, our students will continue to fall 
behind their peers in a globally competitive economy. As a nation, we 
need to do a better job of recognizing that, while mastering math and 
reading are pivotal to a student's success, there are other skills and 
knowledge areas we must equip and arm students with in order to succeed 
in today's workforce.
    History Begins With Me!
                                 ______
                                 
                                             U.S. Congress,
                                Washington, DC, September 29, 2011.
Dr. Amy F. Sichel,
Abington School District, 970 Highland Avenue, Abington, PA 19001-4535.
    Dear Dr. Sichel: Thank you for testifying before the Committee on 
Education and the Workforce at the hearing entitled, ``Education 
Reforms: Examining the Federal Role in Public School Accountability,'' 
on Wednesday, September 14, 2011. I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
Committee after the hearing. Please provide written responses no later 
than October 13, 2011, for inclusion in the final hearing record. 
Responses should be sent to Dan Shorts of the Committee staff who can 
be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
Committee.
            Sincerely,
                                      John Kline, Chairman,
                          Committee on Education and the Workforce.

                    REPRESENTATIVE JOHN KLINE (R-MN)

    1. Your school district has built systems to collect and analyze 
data to improve instruction. Could you give some specific examples of 
how this is being implemented in your district and the impact it has 
had on instruction?
    2. Could you provide specific examples of how your Opportunities to 
Learn initiative is helping you address achievement gaps among your 
students?

                   REPRESENTATIVE JUDY BIGGERT (R-IL)

    1. I've heard from educators who regret having to miss out on 
``teachable moments'' because often it requires risking a loss of, 
quote ``instructional time,'' and the rigid focus on 'teaching to the 
test' means teachers risk lower class scores by doing what they know is 
actually best for their students.
    a. What suggestions do you have for successfully broadening the 
scope of subject matter, while maintaining accountability?
    b. Are you concerned that an expanded curriculum would undermine 
the current focus on math and reading, subjects with which our students 
are still currently struggling?
                                 ______
                                 

     Response From Dr. Sichel to Questions Submitted for the Record

                    REPRESENTATIVE JOHN KLINE (R-MN)

    Question #1: Your school district has built systems to collect and 
analyze data to improve instruction. Could you give some specific 
examples of how this is being implemented in your district and the 
impact it has had on instruction?

    Abington School District has a long history of using multiple data 
sources to improve instruction. Over the past twenty years, principals 
have been given building goals to increase students' proficiency on 
state tests as well as in the district's curriculum-based assessments. 
With the implementation of NCLB, this has included disaggregated groups 
as well. Pennsylvania has a plan for schools that are in Warning, 
School Improvement, or Corrective Action entitled the ``Getting 
Results'' plan. In Abington we have chosen to use this framework even 
though our schools make Adequate Yearly Progress (AYP). Fortunately, 
all of the Pennsylvania state data is pre-populated in the document in 
an on-line secure portal. Each Abington school, under the direction of 
the building principal, forms a Getting Results team made up of 
teachers, building administrators, and members of central 
administration. The team critically analyzes the school data by 
building, grade levels, disaggregated groups, and individual students. 
They add district and school data as well to the document so that the 
plan is not based on one single measure but rather a variety of 
validated assessments, which are more sensitive to student growth. The 
teams meet extensively to develop the plan. During the school year, 
grade level or department level teams meet to discuss new data as it 
becomes available, and, if necessary, to modify the plan. Continuous 
improvement is the goal.
    By doing the extensive planning process from August until mid 
October, the ``root causes'' for academic and social issues are 
apparent. The data drives the interventions. For example, is the issue 
due to a gap in the curriculum or is there a need for more 
differentiated instruction? Some students may need to be re-taught, 
some may need more time on task, some may need modified testing, some 
may need drill and practice, etc. Instruction needs to be customized to 
the situation. Curriculum issues are addressed with the help of the 
Central Office Curriculum staff. Instructional strategies are developed 
at the building level. The Getting Results teams in each school are 
charged under the direction of the principal with support from Central 
Office staff and the Office of the Superintendent to implement the 
school plan, monitor progress, change course, if needed, and make 
ongoing progress.

    Question #2: Could you provide specific examples of how your 
Opportunities to Learn initiative is helping you address achievement 
gaps among your students?

    The Opportunities to Learn (OTL) Initiative has helped to narrow 
the achievement gap. Over the five years of its implementation, the gap 
between the ``All'' students and students with an IEP or African 
American students has narrowed significantly. The charge for the OTL 
committee in 2005 was ``To identify, collect, and analyze appropriate 
data and to formulate cost effective strategies, programs, activities, 
and other initiatives which encourage and support broader number of 
students to achieve proficiency and success in rigorous academic 
course.'' The results to date are astonishing. On October 11, 2011 an 
update on OTL was presented to the Board of School Directors and the 
public for the purpose of sharing these terrific outcomes. Whether you 
look at grade level data or cohort data, progress continues and the 
achievement gaps are narrowed. (See page 8 to 13 of the attached 
PowerPoint). What is even more encouraging is that our growth data 
indicates that in many areas, our 8th to 11th grade students exceeded 
more than one year of growth in a year (See pages 11 and 12 in the 
PowerPoint).
    The attached PowerPoint recognizes the key initiatives, which 
included de-tracking and offering only rigorous, college preparatory, 
or honors/Advanced Placement courses with the needed supports for 
students to be successful. These are the only academic alternatives, 
for anything less does not prepare students for post secondary 
education and the world of work. School-based supports take priority 
during the school day but not at the expense of courses in the arts and 
the interests of the students. The initiatives are outlined on pages 5 
to 7 on the presentation PowerPoint.
    Members of the Abington School District staff have presented our 
OTL program at local, state, and national meetings for many districts 
want to replicate our model. We have written articles for national 
educational magazines and our work with OTL is noted on many websites. 
Just recently in 2011 the American Association of Curriculum and 
Development published a new book by A. Wade Boykin and Pedro Noguera 
entitled Creating the Opportunity to Learn: Moving From Research to 
Practice To Close the Achievement Gap (ASCD, 2-11). The Abington School 
District was noted in the following quote:
    ``Sadly, the number of suburban districts that are also achieving 
progress is smaller. Montgomery County, Maryland; Abington, 
Pennsylvania; and Brockton, Massachusetts stand out because they have 
made steady progress in reducing academic disparities between affluent 
White students and more disadvantaged children of color. However, these 
districts are the exceptions.''

                   REPRESENTATIVE JUDY BIGGERT (R-IL)

    Question: I've heard from educators who regret having to miss out 
on ``teachable moments'' because often it requires risking a loss of, 
``instructional time,'' and the rigid focus on 'teaching to the test' 
means teachers risk lower class scores by doing what they know is 
actually best for their students.
    (a) What suggestions do you have for successfully broadening the 
scope of subject matter, while maintaining accountability?

    The key to broadening the scope of subject matter while maintaining 
accountability is to ensure that the curriculum is aligned to academic 
standards from both a state and national level, the common core 
curriculum. What is taught in class must be the eligible content and 
not teaching to the test. Teachers must cover this core curriculum and 
use their creative teaching styles and approaches to lead students to 
mastery and proficiency. This can be done in a creative fashion by 
using technology, such as interactive whiteboards, web-based and video-
based real-time instruction, computer- based learning, etc. To do this 
well a school district must have a pacing guide with instructional time 
for subjects delineated to make sure that the broad curriculum is 
covered and to implement common assessments to ensure that learning is 
taking place. It is possible to create an instructional timeframe that 
allows teachers a limited amount of time for activities of their 
choice.

    (b) Are you concerned that an expanded curriculum would undermine 
the current focus on math and reading, subjects with which our students 
are still currently struggling?

    The curriculum in Abington has always been expanded to be far 
broader than just mathematics and reading. All students, including 
struggling students, need a broad-based, comprehensive, standards-based 
curriculum in all subjects including social studies, science, health, 
art, music, physical education, etc. Mathematics and reading underpin, 
support, and are reinforced by the instruction in all of these areas. A 
structured weekly schedule that allocates an appropriate number of 
minutes each day to the various subject areas coupled with required 
lesson planning, common assessments, and data-driven intervention plans 
will establish a setting in which students learn in all subject areas.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                                             U.S. Congress,
                                Washington, DC, September 29, 2011.
Ms. Hanna Skandera,
New Mexico Public Education Department, Jerry Apodaca Education 
        Building, 300 Don Gaspar, Santa Fe, NM 87501.
    Ms. Skandera: Thank you for testifying before the Committee on 
Education and the Workforce at the hearing entitled, ``Education 
Reforms: Examining the Federal Role in Public School Accountability,'' 
on Wednesday, September 14, 2011. I appreciate your participation.
    Enclosed are additional questions submitted by members of the 
Committee after the hearing. Please provide written responses no later 
than October 13, 2011 for inclusion in the final hearing record. 
Responses should be sent to Dan Shorts of the Committee staff who can 
be contacted at (202) 225-6558.
    Thank you again for your important contribution to the work of the 
Committee.
            Sincerely,
                                      John Kline, Chairman,
                          Committee on Education and the Workforce.

                    REPRESENTATIVE JOHN KLINE (R-MN)

    1. What is the proper federal role in ensuring states are 
intervening in a significant way in schools that are not performing?
    2. Should the federal government dictate how states construct 
growth models, or what type of growth models they use, as part of their 
state accountability systems?
    3. States and districts should provide parents effective options 
when their students' schools are performing poorly. How can the 
presence of additional choices drive improvement within the entire 
system?

                   REPRESENTATIVE JUDY BIGGERT (R-IL)

    1. I've heard from educators who regret having to miss out on 
``teachable moments'' because often it requires risking a loss of, 
quote ``instructional time,'' and the rigid focus on 'teaching to the 
test' means teachers risk lower class scores by doing what they know is 
actually best for their students.
    a. What suggestions do you have for successfully broadening the 
scope of subject matter, while maintaining accountability?
    b. Are you concerned that an expanded curriculum would undermine 
the current focus on math and reading, subjects with which our students 
are still currently struggling?
                                 ______
                                 

    Response From Ms. Skandera to Questions Submitted for the Record

    1. What is the proper federal role in ensuring states are 
intervening in a significant way in schools that are not performing?

    While the federal government should require states to intervene in 
low-performing schools, the federal government should not prescribe 
what intervention models and methods must be utilized. For example, 
under the current School Improvement Grant (SIG) program, many schools 
are required to replace the principal. However, in small rural 
communities, that is often unrealistic. Further, depending on why the 
school is low-performing, proven strategies for real change should be 
are the center of what interventions are undertaken. Prescribing 
specific methods and models does not allow states, in collaboration 
with districts, to effectively target the specific need(s) of a school.

    2. Should the federal government dictate how states construct 
growth models, or what type of growth models they use, as part of their 
state accountability system?

    In no way should the federal government prescribe the use of growth 
models for accountability, or specific models that must be used. While 
all states should be encouraged to develop accountability systems that 
measure both student proficiency and growth, the weighting of such 
components and how those components are calculated should be determined 
by the state.
    3. States and districts should provide parents with effective 
options when their students' schools are performing poorly. How can the 
presence of additional choices drive improvement within the entire 
system?

    What is key is that effective options are provided. Further, by 
holding all schools--traditional, charter, virtual, etc--to the same 
expectations, transparency and accountability will be consistent. If a 
school continues to under-perform, the state should have the ability to 
intervene and support the school in its efforts to improve. However, if 
the school continues to under-perform, the state should have the 
discretion to exert more oversight. If a charter school fails to raise 
student achievement, there needs to be a concerted effort to help that 
school improve despite their status as a charter. If a traditional 
public school improves significantly, there should be the opportunity 
for that school to receive more flexibility.

    4. I've heard from educators who regret having to miss out on 
``teachable moments'' because often it requires risking a loss of, 
quote ``instructional time'' and the rigid focus on ``teaching to the 
test'' means teachers risk lower class scores by doing what they know 
is actually best for their students.

    a. What suggestions do you have for successfully broadening the 
scope of subject matter, while maintaining accountability?

    An effective teacher can teach math through a science lesson, teach 
reading as part of a social studies lesson, etc. States should still be 
required to implement accountability systems that include measures of 
student proficiency and growth on core academic subjects. By providing 
states with the flexibility to design accountability systems that 
include additional content areas, it is likely that overtime, states 
will work towards implementation of including subjects such as science 
and writing.

    b. Are you concerned that an expanded curriculum would undermine 
the current focus on math and reading, subjects with which are students 
are still currently struggling?

    Currently, New Mexico offers assessments in writing and science in 
addition to reading and math. While those subjects are nor currently 
included in the states A-F school grading initiative, that will be 
considered at a later date. But because reading and math are the 
building blocks in the early grades for future academic success, a 
command focus on those content areas must be maintained. The federal 
government should not require states to include assessments in other 
content areas--that should be a state's decision.
                                 ______
                                 
    [Whereupon, at 12:33 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
